<html>
<title> - DIRTY BOMBS AND BASEMENT NUKES: THE TERRORIST NUCLEAR THREAT</title>
<body><pre>[Senate Hearing 107-575]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-575
 
      DIRTY BOMBS AND BASEMENT NUKES: THE TERRORIST NUCLEAR THREAT
=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION
                               __________

                              MARCH 6, 2002
                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate







                        U.S. GOVERNMENT PRINTING OFFICE
80-848                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                     Edwin K. Hall, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)

  








                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................     5
Cobb, Dr. Donald D., Associate Laboratory Director for Threat 
  Reduction, Los Alamos National Laboratory, Los Alamos, NM......    11
    Prepared statement...........................................    14
Helms, Hon. Jesse, U.S. Senator from North Carolina, prepared 
  statement......................................................     6
Kelly, Dr. Henry C., President, Federation of American Scientist, 
  Washington, DC.................................................    30
    Prepared statement...........................................    37
Koonin, Dr. Steven E., Provost, California Institute of 
  Technology, Pasadena, CA.......................................    15
    Prepared statement...........................................    19
Meserve, Dr. Richard A., Chairman, Nuclear Regulatory Commission, 
  Washington, DC.................................................     8
Vantine, Dr. Harry C., Division Leader, Counter-terrorism and 
  Incident Response, Lawrence Livermore National Laboratory, 
  Livermore, CA..................................................    48
    Prepared statement...........................................    53

                                 (iii)

  








      DIRTY BOMBS AND BASEMENT NUKES: THE TERRORIST NUCLEAR THREAT

                              ----------                              


                        WEDNESDAY, MARCH 6, 2002

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Joseph R. Biden, 
Jr. (chairman of the committee), presiding.
    Present: Senators Biden and Nelson.
    The Chairman. The hearing will please come to order. Good 
morning, gentlemen. Thank you so much for being here. Let me 
explain, I have already explained to three of our five 
witnesses today the scheduling dilemma, and I want to explain 
to the public and the press that is here our circumstances. We 
have a number of things going on today, not the least of which 
is, Senator Helms and I, along with our counterparts in the 
House, have been asked to meet with the President at 10:30, and 
the President is fulfilling his commitment of briefing us on 
some detail on foreign policy matters.
    As you know, there is a little bit of, as they say, a dust-
up in the press as to whether we are being informed. We are 
being informed, and part of that is meeting with the President 
today, but as we all know, President's schedules are busier 
than Senators' schedules, which is fully understandable, and we 
were unaware of this meeting until yesterday.
    In addition to that, Senator Lugar and Senator Hagel, both 
are keenly interested in this subject and are involved in a 
hearing, and Senator Lugar will not be able to be here until 
this afternoon. As ranking member of Agriculture he is deeply 
involved in that matter, and there is some real sort of 
dilemmas on the floor of the Senate right now that are, as they 
say, seizing the body in a way that has made this an uncertain 
start. This hearing was supposed to start at 10 a.m. We moved 
it up to 9:30 in order to get in, to accommodate, or to 
accommodate us.
    Two of our witnesses, Dr. Meserve and Dr. Cobb, are unable 
to be here this afternoon. There is no reason why they should 
have been able to. They were told this was going to be in the 
morning in the first place, and Dr. Koonin, the Provost at 
California Institute of Technology in Pasadena is here. He was 
kind enough to be here this morning, and indicated he would be 
here this afternoon, and we will hear from Drs. Kelly, who is 
the president of the Federation of American Scientists, and Dr. 
Vantine, who is division leader of the Counter-terrorism and 
Incident Response at Lawrence Livermore National Laboratory in 
Livermore, California, this afternoon.
    I should state to the press that we had a closed hearing 
yesterday in S-407, a secure room, because quite frankly we are 
sort of--improvising is the wrong word, but deciding as we go 
that fine line between the public's right to know and need to 
know, and us not providing, as one person said, a cookbook for 
some screwball who, seeing this televised on national 
television, would be able to--or would think he or she would be 
able to cause some havoc.
    I personally--and I have consulted with my colleagues, 
particularly Senator Lugar, on this--have little doubt that the 
terrorists we are most concerned about have knowledge of what 
we spoke about yesterday, but it still is a close call. I 
instructed the witnesses--that is the wrong word. I have 
suggested to the witnesses, I have instructed no one, that if 
any question that I ask this morning or this afternoon they 
believe would border on releasing information, although may be 
in the public domain but not so easy to access, that they think 
would be detrimental if broadcast, they should just indicate 
they would rather discuss that in a closed session.
    Now, the second point I would make is, Senator Helms is 
unable to be here this morning. He is at the White House now, 
if I am not mistaken, I think on another matter unrelated to 
this, but hopefully will be here this afternoon.
    I have a prepared statement that I am going to enter in the 
record to save time. I will just suggest the following, that I 
have long believed and felt, and on three occasions attempted 
to raise the concern, and I would suggest some degree of alarm, 
about the possibility of terrorists, and we have learned very 
clearly that terrorists are fully prepared, some to give their 
lives, in an effort to undertake their terrorist activity. That 
being the case, it raises the ante when we are talking about 
potentially more dangerous avenues of attack.
    In particular, it means our assumption about radiological 
and nuclear weapons in the hands of al-Qaeda and other fanatic 
groups must be revisited and revised, and that we had thought 
that extremely radioactive sources were self-protecting in that 
they were difficult to handle, and people would be unwilling to 
handle them. We had thought that no terrorist would use them 
because his own death was guaranteed by exposure, from the 
radiation emitted.
    We now know that is not true. Today there is a new reality. 
Today there is a new reality. Today we know that radiological 
and nuclear attacks in the United States are not only possible, 
but there are enough screwballs out there who are willing to 
risk their lives or give their lives in order to use them or 
other potential weapons against the United States. Today, we 
know such attacks would be terribly devastating.
    We have come to realize that there are those who would 
literally die to use them. If a dirty bomb were to be detonated 
in the center of Washington, or if a highly radioactive can of 
powder were emptied from a rooftop, it could kill dozens. It 
would not be the catastrophic event that many think, but it 
would have a catastrophic psychological impact on the Nation 
and, even worse, it would contaminate a city that would 
probably result in evacuations and great difficulty in 
convincing the American public that it could be reinhabited, 
even though the increased cause or risk of cancer and/or other 
negative health effects would be relatively minimal.
    The economic impact that could result from such an attack 
could be devastating. We all know what the economic impact was 
when the World Trade Towers came down, beyond the impact of the 
loss of the towers, as well as the loss of the personnel and 
the businesses that were contained in the towers. It went 
beyond that, and quite frankly, I have tried, along with others 
on at least three occasions in the last year to raise the alarm 
bell about this.
    I must be straightforward with you. This is not what the 
scientists are here to discuss, but I want to straightforwardly 
state what my purpose is as chairman of this committee in 
trying to highlight this danger again, and this will not be the 
last hearing I will have on this. I am going to do this until 
the policymakers in the Congress and in the White House and in 
every unit of government begin to make a decision about 
priorities in this country.
    One of the things we have to look at as policymakers is 
what is the most likely devastation that could be rained upon 
the United States if we are willing, and I am not opposed to it 
in principle, if we are willing to commit to spend $100 
billion--depending upon whether we have a layered national 
missile defense system or a single system that is limited, we 
are talking about spending, committing over the next 10 years 
somewhere between $100 billion to $1 trillion on national 
missile defense.
    And I would love to have a national missile defense that 
was redundant, but the Pentagon, as well as many others, 
believe that is the least likely threat we face, is from an 
ICBM hurtling across the skies, crashing into the United States 
of America. It is a real threat. It is a possibility, but it is 
not the most likely possibility, and I would argue, and have 
argued for a long time, that even before the so-called Baker-
Cutler report was issued, that the single most urgent threat we 
face is the access potential terrorists have to fissile 
material, and knowledge and access to scientific capability 
that resides in what I refer to as the candy store of all candy 
stores for terrorists, and that is Russia.
    The good news is, Russia wants to cooperate. Russia needs 
help. Russia wants to inventory and wants us to help account 
for and destroy, or at least secure nuclear weapons and fissile 
material. The Baker report indicated that it was the most 
urgent national threat we faced, and that it would cost $30 
billion over the next 5 to 8 years to begin to corral it, so I 
just want us to be facing head on and look realistically into 
the eye of the threat and make some realistic decisions based 
on priorities and limited resources after we have heard all the 
evidence, the point being, we have to wonder if terrorists 
could take advantage of a situation--for example, the curie 
conventional measure of a radioactive source, a tenth of a 
curie can kill people within a few weeks. A single curie is a 
very strong source and, if left unshielded in an office, could 
kill the inhabitants in days.
    A cesium source found in North Carolina in a steel mill was 
only 2 curies in strength, but far more intense sources of 
radiation have turned up in some strange places lately. Last 
December, in the former Soviet Republic of Georgia, three 
hunters gathering firewood stumbled upon two abandoned 
canisters, incredibly lethal material, which the canister 
contained 40,000 curies of material. By the way, all three 
hunters were critically injured, but since they did not break 
open the canisters, there was no environmental contamination.
    Let me just say, even though a team from the Government of 
Georgia and the International Atomic Energy Agency recovered 
the containers, several more Soviet sources are unaccounted 
for. It is certainly not comforting to think the former Soviet 
Union made hundreds of similar devices.
    These hearings are intended to let us know exactly what is 
out there and how close the threat of terrorists getting their 
hands on such material really is. We need to know what is 
possible, and how readily terrorists could make a dirty bomb. 
We also need to consider how terrorists might turn uranium or 
plutonium into a true nuclear explosive.
    We need to know how, with or without explosive devices, 
nuclear materials might be dispersed and dispensed, and the 
kind of damage that could be done. We need to know what has to 
be done to ensure that the threat remains exactly that, a 
threat and nothing more. We once thought it would be virtually 
impossible for anyone to have the money, the means, the motive 
to build its own nuclear explosive device and the will to use 
it, but just last month, according to press reports, our 
Special Forces found pamphlets and manuals on nuclear weapons 
in al-Qaeda safe houses.
    We learned of al-Qaeda's dealing on the black market for 
nuclear materials. Whether they have been successful is 
doubtful, but Time Magazine this week reported an alleged plot 
to bring a nuclear device to New York. September 11 vividly 
shows us the kind of hatred we face, the kind of people who, 
were they to get their hands on such weapons, would have no 
hesitation to kill Americans.
    We have a new perspective, in many ways a more realistic 
perspective. We see the clear and present danger. We understand 
the threats that exist. We also understand that we must address 
these threats. Before we can be successful in protecting 
against them, we have to have a complete understanding of them. 
We have to know exactly what the terrorists can do with nuclear 
materials, from the simplest application to the most 
sophisticated, and there are important steps we can take to 
stop them, from improving nuclear security in the former Soviet 
Union to thinking carefully about our response here at home, to 
combating the threat of nuclear terrorism, and make it much 
less destructive if it were to occur.
    Are there international conventions and codes of conduct 
which could restrict access to fissile material? Can the IAEA 
help? How can we allocate resources to combat radiological or 
nuclear terrorist attack? What priority should this have in the 
larger context of defending the United States, as compared, for 
example, to other defensive systems or buildings? What is 
required to protect against radioactive and nuclear terrorism, 
as compared to protecting against biological agents or chemical 
weapons in the hands of rogue states?
    The bottom line, the choice would be made based upon what 
we know and what we think is most likely.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    I have long believed and felt--and have attempted to raise the 
alarm--about the risk of terrorism with weapons of mass destruction. 
September 11 introduced the possibility of terrorists prepared to give 
their lives in undertaking their activities. The ante is raised by 
that; we now face potentially more dangerous avenues of attack, such as 
the use of radiological weapons.
    We had thought that extremely radioactive sources were ``self-
protecting.'' We had thought that no terrorist would use them because 
his own death was guaranteed by exposure to the radiation they emit.
    We now know that's not true. Today there's a new reality. Today we 
know that radiological and nuclear attacks on the United States are not 
only possible, but there are enough screwballs out there willing to 
risk or even give their lives to use them against the United States.
    We know such attacks would be terribly devastating. And today we 
realize that there are those who would literally die to use them.
    If a dirty bomb were to be detonated in the center of Washington, 
or if a can of highly radioactive powder were emptied from a rooftop, 
it could kill dozens--it would not be the catastrophic event that many 
might think it would be, but it would have a catastrophic psychological 
effect on the United States. Even worse, it would so contaminate part 
of the city that we'd have to evacuate and perhaps demolish a number of 
buildings. The economic impact could be devastating.
    One of the things we have to look at as policy makers is what is 
the most likely devastation that could be rained on the United States. 
Should we spend up to a hundred billion dollars to a quarter trillion 
dollars for a national missile defense system while the Pentagon, as 
well as many others, believes the least likely threat we face is from 
an ICBM missile? It is a real threat, it is a possibility, but it is 
not the most likely possibility.
    I have argued for a long time that the single most urgent threat we 
face is the access that potential terrorists have to fissile material 
and knowledge and scientific capability that resides in what I refer to 
as the candy store for terrorists, and that is Russia.
    The good news is Russia wants to cooperate, it wants to inventory 
and wants us to help account for and secure nuclear weapons and fissile 
material. I just want us to look realistically at the threat and to 
make some realistic decisions based on priorities and limited resources 
after we have heard all the evidence.
    The curie is the conventional measure of the intensity of a 
radioactive source. A tenth of a curie can kill people in a few weeks; 
a single curie is a very strong source, and if left unshielded in an 
office could kill the inhabitants in days. The cesium source found 
recently in some scrap metal in a North Carolina steel mill was only 
two curies in strength. But far more intense sources of radiation have 
turned up in some strange places recently.
    Last December, in the former Soviet Republic of Georgia, three 
hunters gathering firewood stumbled onto two abandoned canisters of an 
incredibly lethal material. Each of those canisters contained 40,000 
curies of material.
    By the way, all three hunters were critically injured, but, since 
they didn't break open the containers, there was no environmental 
contamination.
    Let me just say, even though a team from the government of Georgia 
and the International Atomic Energy Agency recovered the containers, 
several more former-Soviet sources are apparently unaccounted for.
    It is certainly not comforting to think that the former Soviet 
Union made hundreds of similar devices.
    These hearings are intended to let us know what exactly is out 
there and how close the threat of terrorists getting their hands on 
such materials really is.
    We need to know what's possible, how readily terrorists could make 
a dirty bomb. We also need to consider how terrorists might turn 
uranium or plutonium into a true nuclear explosive.
    We need to know how, with or without explosive devices, nuclear 
materials might be dispersed and the kind of damage that could do.
    We need to know what has to be done to ensure that the threat 
remains exactly that--a threat--and nothing more.
    We once thought it would be virtually impossible for anyone to have 
the money, the means, and the motive to build his own nuclear explosive 
device, and the will to use it. But just last month, according to press 
reports, our Special Forces found pamphlets and manuals on nuclear 
weapons in al-Qaeda safe houses.
    We've learned of al-Qaeda's dealings on the black market for 
nuclear materials.
    Whether they've been successful is doubtful, but Time Magazine, 
this week, reported an alleged plot to bring a nuclear device into New 
York.
    September 11 vividly showed us the kind of hatred we face, the kind 
of people who--were they to get their hands on such weapons--would have 
no hesitation to kill Americans.
    We have a new perspective--in many ways, a more realistic 
perspective.
    We see the clear and present danger and we understand the threats 
that exist. We also understand that we must address these threats. 
Before we can successfully protect against them, we have to have a 
complete understanding of them. We have to know exactly what a 
terrorists can do with nuclear materials, from the simplest application 
to the most sophisticated.
    There are important steps we can take to stop them--from improving 
nuclear security in the former Soviet Union to thinking carefully about 
our response here at home--to combat the threat of nuclear terrorism or 
make it less destructive if it were to occur. Some questions to 
consider:
    Are there international conventions and codes of conduct which 
could restrict access to fissile materials? Can the IAEA help? How 
should we allocate resources to combat a radiological or nuclear 
terrorist attack? What priority should this have in the larger context 
of defending the United States--as compared, for example, to other 
defensive systems we're building?
    What is required to protect against radioactive and nuclear 
terrorism, as compared to protecting against biological agents, or 
chemical weapons, in the hands of rogue states or terrorists? The 
bottom line: What choices should we be making based on what we know and 
what is most likely?
    Our first witness is Dr. Richard A. Meserve, Chairman of the 
Nuclear Regulatory Commission. He's a man with an unusual background: a 
Ph.D. in applied physics from Stanford University, and a J.D. from 
Harvard Law School. Chairman Meserve has focused on an enormous range 
of issues that arise at the intersection of law with science and 
technology, including environmental law, nuclear licensing, and nuclear 
non-proliferation.
    Then we will hear from Dr. Donald D. Cobb, Associate Laboratory 
Director for Threat Reduction at Los Alamos National Laboratory. In his 
thirty-year career, Dr. Cobb has managed major programs in arms 
control, the detection of nuclear explosions, and the developments of 
safeguard systems.
    Later, we will speak with Dr. Steven E. Koonin, who is a specialist 
in theoretical nuclear physics, Provost of the California Institute of 
Technology and chair of JASON, the group of top scientists who have 
advised the government on issues including nuclear weapons, arms 
control, and intelligence for almost four decades. In 1999 he was the 
recipient of the Department of Energy's prestigious E.O. Lawrence 
award.
    He has studied possible radiological and nuclear terrorist devices, 
and, not surprisingly, found their potential extraordinarily alarming.
    The Federation of American Scientists has long been an important 
voice to educate the nation about nuclear issues. We are pleased to 
have its president, Dr. Henry Kelly, here to discuss the recent FAS 
study of the effects of a dirty radiological bomb. Dr. Kelly spent over 
seven years as Assistant Director for Technology in the White House's 
Office of Science and Technology.
    And finally, we will hear from Dr. Harry Vantine, Division Leader 
of the Counterterrorism and Incident Response Division at Lawrence 
Livermore National Laboratory.

    [The prepared statement of Senator Helms follows:]

               Prepared Statement of Senator Jesse Helms

          radiological dispersal devices: threat and response
    Mr. Chairman, thank you for scheduling this hearing today.
    As we have all learned so tragically, terrorist organizations 
present a very real threat to America and are capable of the most 
vicious and barbaric acts.
    The increasing capabilities of terrorist groups and the malevolent 
intentions of those nations that support them combine to threaten us in 
ways not previously imagined.
    Because these threats are only limited by a terrorist's ingenuity 
and capabilities, we must defend the American people against all 
potential threats.
    Today we will hear testimony on Radiological Dispersal Devices, one 
of those threats known to only a few, but which could cause harm to 
many. These ``dirty bombs,'' as they are more commonly known, combine 
conventional explosives with radioactive material.
    These devices are often simple to build--if you have the necessary 
materials--but will likely produce more fear and terror in a civilian 
population than actual damage. That is why the potential threat must 
not be exaggerated.
    To begin, the radioactive material needed to build these bombs is 
difficult to acquire, and even more difficult to handle or transport.
    Additionally, in contradiction to published news reports, these 
devices are not likely to kill thousands of people, or to leave large 
swaths of land uninhabitable for decades.
    Rather, scenarios envisioned by the intelligence community indicate 
that more people would be harmed by the bomb blast than from the 
radiation itself, which would most likely be less than what the average 
person receives in a year from the sun.
    But while the physical destructive power of a radiological 
dispersal device may be very limited, its psychological impact on our 
economy and sense of security could be enormous.
    In light of this potential catastrophe, the administration is 
sensibly advancing efforts to secure our borders, tighten our customs 
procedures, and strengthen export control laws. The administration is 
also bolstering multilateral export control regimes and the national 
initiatives abroad that support them.
    Another integral aspect of our defense against this threat is our 
set of programs that account for and secure Russian nuclear material 
and prevent their potential theft or illicit transfer.
    Such programs are undermined, however, when Moscow squanders U.S. 
assistance, fails to tighten its own export control and border security 
procedures, and continues its dangerous nuclear cooperation with Iran.
    That is why my ``debt for non-proliferation'' legislation, which 
passed unanimously through this Committee last year, conditioned any 
debt relief for Russia on Moscow ending its illicit relationship with 
Tehran.
    Russian nuclear proliferation to Iran is a clear threat to the 
United States, and its interests and allies in the Persian Gulf region, 
and must be stopped.
    How the United States prepares to deal with the consequences of an 
attack employing a nuclear weapon or radiological device is an 
essential government responsibility; however, I would much prefer first 
to prevent and defend against the clear threat--Russian proliferation 
to Iran--rather than deal with the terrible consequences that could 
follow.
    This is why, given Russia's equally nefarious proliferation of 
missile technology to Iran, I applaud the President's decision to 
withdraw from the outdated ABM Treaty and to build robust missile 
defenses.
    In short, when it comes to America's security, we must be prepared 
to deal with threats.
    I am grateful to our witnesses for being here today, and look 
forward to their testimony.

    The Chairman. Our first witnesses this morning are going to 
be--and I am going to have to go a little out of order here, 
since we changed it--Dr. Donald D. Cobb, associate laboratory 
director for Threat Reduction at Los Alamos National 
Laboratory. In his 30-year career, Dr. Cobb has managed major 
programs and arms control, the detonation of nuclear 
explosions, and the development of safeguard systems.
    We also are going to hear this morning from Dr. Richard A. 
Meserve, Chairman of the Nuclear Regulatory Commission [NRC]. 
He is a man with an unusual background, a Ph.D. in applied 
physics from Stanford University, a J.D. from Harvard Law 
School. Chairman Meserve has focused on the enormous range of 
issues that arise at the intersection of law and science and 
technology, including environmental law and nuclear licensing 
and nuclear nonproliferation.
    We are also going to hear, time permitting--and he has been 
wonderful in accommodating us--Dr. Steven E. Koonin, who is a 
specialist in theoretical nuclear physics, the Provost at 
California Institute of Technology, in care of JASON, a group 
of top scientists who have advised our Government on issues 
including nuclear weapons, arms control and intelligence for 
almost four decades.
    In 1999, he was the recipient of the Department of Energy's 
prestigious E.O. Lawrence Award. He has studied possible 
radiological and nuclear terrorist devices and, not 
surprisingly, found the potential extremely alarming.
    We also will hear later from Drs. Kelly, representing the 
Federation of American Scientists, and also from--I apologize 
for skipping around, but we have changed the order here. We are 
going to hear from Dr. Harry Vantine, division leader of the 
Counter-terrorism and Incident Response Division at Lawrence 
Livermore Laboratory.
    Gentlemen, do you have a suggested way in which it is most 
orderly to proceed this morning? Should you begin, Dr. Meserve?
    Dr. Meserve. I would be happy to.
    The Chairman. If you would proceed, and I thank you again 
for accommodating our hectic schedule.

    STATEMENT OF DR. RICHARD A. MESERVE, CHAIRMAN, NUCLEAR 
             REGULATORY COMMISSION, WASHINGTON, DC

    Dr. Meserve. Mr. Chairman, I am very pleased to have the 
opportunity to meet with you today to discuss a very important 
subject. As you indicated, I am the Chairman of the Nuclear 
Regulatory Commission. Most of our attention, or a large part 
of our attention since September 11, as you will appreciate, 
has been focused on nuclear power plants and the hazards that 
might be associated with a terrorist attack on such a facility. 
The NRC also regulates radioactive materials, and they also 
have not lacked attention since the September 11 events.
    What I would like to do this morning is to briefly cover 
three subjects. First, our assessment of radiological 
dispersion devices, which I will come back and define in a 
moment. Second, I would like to discuss some of the NRC actions 
to deal with the threats associated with such devices, and then 
finally I would like to briefly discuss materials associated 
with nuclear weapons themselves.
    Let me first describe what I mean by a radiological 
dispersion device. This is a terminology that is used to 
describe any device that would serve to disperse radioactive 
material in a public area. For example, one might imagine that 
one could take some conventional explosive and to combine it 
with radioactive material and use the explosive as the vehicle 
to disperse the radioactive material in a public area. This, of 
course, has to be sharply distinguished from a nuclear weapon, 
which itself relies upon the nuclear material to cause the 
propulsive force. A nuclear weapon, of course, as you all know, 
would have devastating effects. This is in contrast with a 
radiological dispersion device. Our evaluation, consistent with 
the statement you made at the beginning, Mr. Chairman, is that 
such devices are really not very effective as a means for 
causing fatalities. We have looked at a range of scenarios in 
which they might be used, and they could cause, certainly could 
cause death, but we are talking deaths on the order of tens of 
people in most scenarios, rather than hundreds or thousands, or 
tens of thousands.
    The reason for this is that the very large sources, some of 
which are in use to irradiate the mail that you are receiving, 
tend to be self-protecting in the sense that these very large 
sources would be very difficult to handle without elaborate 
equipment. An individual has to be shielded in order to avoid 
health effects.
    The Chairman. Can you explain what you mean by shielded, 
doctor?
    Dr. Meserve. By shielded we mean some material, for 
example, lead, which serves to attenuate or stop the radiation 
that is emitted from the device. If there is shielding between 
you and the device, then you do not get the radiation exposure.
    The Chairman. Is it appropriate for those who are listening 
to think in terms of a shield like when you go in and have an x 
ray, and you have that big leaded apron put on you, that it 
prevents the radiation from penetrating that, and only goes to 
the area where it is intended?
    Dr. Meserve. That is exactly right. That is exactly what I 
mean.
    The Chairman. Thank you.
    Dr. Meserve. These devices, very large sources, tend to be 
self-protecting, in that someone handling such a device, 
without handling them in an appropriate way, could get a lethal 
dose of radiation very quickly, in a matter of a few minutes or 
so, and would rapidly become very disorganized and unable to 
function, and would die soon.
    The second reason why these sources tend not to have large 
health effects is that the dispersal of the radioactive 
material tends to reduce the risk, in that intensity of the 
source is reduced by spreading it over a larger area. Of 
course, if you have an explosive event, people are aware that 
something has happened, and they can be evacuated from the 
area, so you do not have an extended duration of exposure. The 
intensity of the radiation times the time in which you are 
exposed is what determines the risk.
    So we do not see that radiological dispersion devices 
themselves, because of their radiological properties, have very 
significant health risk associated with them and, of course, 
that is the reason why no country of which I am aware includes 
such devices in its armories. Although there are countries that 
have contemplated biological or chemical or nuclear weapons, 
radiological dispersion devices are not included, and that is 
because they are not very effective as weapons.
    This is not to deny the fact that they could have a very 
severe psychological effect, and that there is a fear of 
radiation, a fear of health effects. Of course the terrorists' 
greatest weapon is fear, and I think that one of the beneficial 
things that I hope will come out of this hearing is a process 
of educating the American public, as a part of our self-
defense, that such devices are likely to have limited direct 
health effects.
    Of course, a second consequence, as you noted in your 
opening statement, is the problem that these devices could 
spread contamination over an area that might not result in 
serious health consequences, but would have to be cleaned up. 
There would be the effect of people's concerns about that area 
in the future and cleanup costs would be expensive. The 
deflection of people from their normal activities until the 
area has been cleaned up is going to create costs. So I do not 
mean to minimize consequences of such an event, although the 
health effects are not particularly significant. In light of 
the consequences, however, it is important that we have tight 
regulatory controls on these materials.
    Let me say that nuclear materials are in widespread use in 
our economy, and the uses range from radiopharmaceuticals, to 
the radiography of welds in construction sites, to instruments 
that are commonly used in production processes in plants to 
measure the flow of materials, the level of materials in tanks 
and the like. Many of these materials that are in common use 
would not be attractive for a radiological dispersion device in 
any event, because they could only be available in small 
quantities and have a very short half-life.
    Most radiopharmaceuticals, for example, have only a short 
half-life, so they would not be particularly useful for 
terrorist purposes. But nonetheless there are some of these 
materials that are of concern.
    The NRC before September 11 had a comprehensive set of 
licensing requirements to ensure that radioactive materials are 
used, stored, and transported in a safe fashion. The focus of 
the regulatory requirements was on safe use. September 11 has 
awakened us to the concerns about possible malevolent use of 
these materials in a way that we had perhaps not appreciated as 
fully as we might have. The actions we have taken since then 
include the issuance of a series of advisories to our 
licensees.
    Let me say many of these materials are regulated by the 
states, and so we work cooperatively with the states in this 
area. We issued advisories to our licensees and the states have 
issued parallel advisories to their licensees to basically 
bring these materials under tighter controls. This is not the 
forum in which to go into the details of all of these 
requirements, but they basically involve increased attention to 
unusual activities that might be associated with these 
materials, tighter security controls, increased protection of 
the materials, making sure, if there are unusual activities, 
that there are reports to the police and to us about these 
events so they could be evaluated for intelligence purposes, 
and increased scrutiny of who is purchasing materials.
    We are also undertaking a comprehensive examination of our 
regulatory system. We work in this area with the Office of 
Homeland Security, the FBI, the Department of Energy and the 
Department of Transportation, Customs Service, and with the 
states, as I have indicated. All of us have some piece of this 
puzzle, and we are working this issue. As a result of the 
comprehensive review I expect there will be some tightened, 
more permanent regulatory changes that we will be making.
    I would like to close by saying just a few words about 
special nuclear material. These are the materials that are the 
essential ingredients in building a nuclear weapon. As I have 
indicated, such weapons should be sharply distinguished from 
radiological dispersion devices because of the consequences 
that would be associated with their use. An essential 
ingredient in a nuclear weapon is special nuclear material--
that is, highly enriched uranium or plutonium.
    We have extensive safeguards in this country on such 
material, and have had for 50 years, in recognition of its 
importance. Such materials are very heavily guarded at all 
times, with extensive monitoring devices and other aids to 
assure that this material does not escape from control.
    As you indicated in your opening statement, the crucial 
issue with regard to these materials is the possibility they 
might be diverted from a foreign source. There are huge 
quantities of such material in Russia under limited control. 
There have been extensive programs that have been undertaken by 
the Department of Energy in particular to try to bring these 
materials under control, but there is still a lot of work that 
will have to be undertaken.
    I share your view that this is an important challenge in 
which the United States should be engaged in order to assure 
the protection of such materials at the source, because if they 
were to be lost from their source, they would be very hard to 
detect. I think this is a national priority to build on the 
programs, that incidentally have had bipartisan support over 
the years, to assure that these materials are safeguarded 
adequately.
    That concludes my statement. I would be very happy to 
respond to questions.
    The Chairman. Thank you, doctor. I think what we should do 
is hear from all the witnesses, if we could, and Dr. Cobb, we 
welcome you, and again thank you not only for this morning, but 
for yesterday. My colleagues and I found your briefing thorough 
and interesting and chilling, and somewhat hopeful.

STATEMENT OF DR. DONALD D. COBB, ASSOCIATE LABORATORY DIRECTOR 
   FOR THREAT REDUCTION, LOS ALAMOS NATIONAL LABORATORY, LOS 
                           ALAMOS, NM

    Dr. Cobb. Thank you, Mr. Chairman, for inviting me to 
discuss this important topic of potential terrorist attacks not 
only using radiological dispersal devices, but the entire 
spectrum of potential nuclear terrorism threats that we face. 
You mentioned, as the Associate Director for Threat Reduction, 
I have been working some of these issues for 30 years. I have a 
written statement that I have submitted. I would like to just 
make a few points.
    The Chairman. Your entire statement will be placed in the 
record.
    Dr. Cobb. Thank you, sir.
    Briefly, let me start by saying--and I think you pointed 
this out in your opening remarks--that we cannot just focus on 
part of the problem. It is not just radiological dispersal 
devices. The entire spectrum, from that perhaps being the low 
end of terrorism, to now concerns about nuclear ability to 
acquire the materials and create a nuclear explosive device. I 
think we need to consider all of these in the context of the 
concerns we have today.
    Let me just say for the past 30 years we have been looking 
for evidence of not only countries acquiring nuclear materials, 
but other groups that might be supported to acquire those, so 
it is not a new thing we are worried about the threat, but 
since September 11, clearly it has brought home the desire to 
create and inflict the maximum amount of damage by the 
terrorists to our country, so I think that did change on 
September 11, as has changed our viewpoint.
    The Chairman. And if I might interject, I do not know if 
this is true, but I think since the Wall came down and the 
Soviet Union broke up, we have a very different view of, at 
least in my recollection, dealing with this subject for years 
and years, particularly on the strategic doctrine side of the 
equation was that we did not worry very much about the lack of 
control of this material in weapons by the former Soviet Union. 
We, as a matter of fact, ascribed to them a capability and a 
security apparatus that was tighter than it really was, but 
after the wall came down and the Soviet Union broke up, I would 
suggest that put a slightly new slant on our concern.
    Dr. Cobb. That is exactly right, sir, and in fact as you 
know, prior to the fall of the former Soviet Union, the KGB and 
tight security enforcement in Russia and control of the people 
were the methods to control these, and it made us less 
concerned, but since that time, of course, opening up the 
Soviet Union has made a difference, and let me say some more 
words about that as we go through, because I think that is an 
essential point.
    One of the principles in relating to nuclear materials and 
the nuclear threat that goes back to Manhattan Project, and I 
think Dr. Meserve mentioned this, is to control the materials, 
keep the sources of these materials out of the hands of the bad 
guys.
    The Chairman. For the public, would you explain the 
materials you are referring to?
    Dr. Cobb. The materials are nuclear materials that are 
source materials that could be used, for example, in nuclear 
weapons. For nuclear weapons it is enriched uranium and 
plutonium, and so for 50 years the focus has been to keep the 
use of those types of nuclear materials rigidly controlled so 
that they do not get diverted and get distributed. I think we 
can extend some of that principle to radiological materials, 
and I think Dr. Meserve talked about a change in emphasis 
toward helping to control the materials.
    Let me talk to you about a couple of the programs that I 
think are important that we can draw on, because I think some 
of the things that we have done over the last 10 years since 
the fall of the Soviet Union can apply here. One of them is, 
and again the Department of Energy, the National Nuclear 
Security Administration has been working the materials 
protection, control, and accounting, and what that is basically 
is to work with colleagues in Russia at sites, and there are 
over 100 of them, to try to secure the nuclear materials that 
they have, the materials that are weapons-usable materials, and 
that is what we call kind of the first line of defense, 
securing the materials in place where they are so they cannot 
get out.
    Once they get out, they are much more difficult to find and 
track, so that is one. If you worry about, and you do, if you 
worry about the materials that could be smuggled across 
borders, at transit points, overseas, out of Russia, maybe 
through intermediaries in Europe and other countries, then 
getting into the United States, you need border protection, so 
securing--and let me say today we do not have the security at 
the borders we would like to have, but the ability to develop 
detection capabilities to look for nuclear materials.
    If I talk about weapons-usable materials--let me be clear, 
if I am talking about enriched uranium or plutonium, those are 
very challenging things to detect at those points, so that is a 
focus for us to develop that capability, and has been. If you 
think about these radiological materials, particularly if you 
are talking about large sources of the type that you mentioned 
in your opening statement that might be used overseas, those 
also generate a lot of radiation that is detectable by the 
sensors, and so in some sense for free we get some capability 
if we just deploy the systems we are talking about today at 
these borders and choke points, looking for all of the 
materials, including radiological, so that is a second one.
    A third one that I would cite is, we have international 
agreements. We have the International Atomic Energy Agency 
[IAEA], which has the safeguards program. We have a Nuclear 
Suppliers Group, which looks at export controls. What that 
means is that we actually share information with over 30 other 
countries about nuclear-related exports, technologies, 
materials, whatever it might be. It seems to me reasonable to 
just kind of expand that even on an informal basis to share 
information about radiological materials as well as nuclear 
weapons-related technologies and materials.
    So there are a number of things that are already available, 
kind of institutionalized, that we can draw on to extend to the 
radiological problem, and I personally believe that we should, 
and I would say for the National Nuclear Security 
Administration [NNSA], the Department of Energy, they are 
talking--you mentioned the Russians are being cooperative. 
Well, I know the people in DOE are talking to their Russian 
counterparts about extending some of these programs.
    Let me go on to say that there is a difference, though, 
between the radiological sources, the sources of mass 
disruption, as people have called them, versus nuclear weapons-
capable materials, and I think Dr. Meserve did a good job of 
talking about them. They are distributed widely. There is a 
problem that the materials that could be radiological sources 
could be susceptible to theft or diversion, even locally in the 
United States, be closer at hand so there is a possibility that 
they could be stolen. Clearly, that is a licensing and control 
issue that needs work, and Dr. Meserve I think addressed that 
very well.
    Let me talk about one point that is related to what 
happens, what are we going to do about it if something does 
occur? Clearly, the state and local first responders, the state 
and local agencies are going to be faced with this, and so 
today the Federal Government, the Department of Energy, we are 
working with state and local responders, we are doing exercises 
and training, and I think we need to do more of those kinds of 
activities.
    If the worst does occur, it is a nuclear emergency support 
team, the Federal-level Department of Energy people that will 
be the Federal help in response to such an activity to actually 
understand what the extent of the damage is, what kind of 
responses would be most effective to preserve human life, 
protect the health of the public, and protect the environment.
    The nuclear emergency support team is mostly configured 
with people from the national laboratories who are experts in 
radiation and detection, and all of these various technologies, 
and they are volunteers, and I just wanted to say we are very 
proud of them, because these people, they give up nights, 
weekends, they are called out at any time of the day or night. 
They go off on short notice to help with this, and so we are 
proud of that capability, but it needs to be expanded. It needs 
to be extended in terms of its capabilities to support the 
state and local authorities, particularly in consequence 
management.
    What I mean by that, if there is a radiological dispersal, 
how do we deal with the cleanup problem? How do we protect the 
environment and the public? That is still a challenge, still 
something we need to work on with more training, more 
technology.
    The final point that I want to make, our military is the 
best in the world, because we have our entire Nation's science 
and tech base supporting it. We need to apply that same kind of 
process for science and technology support to homeland 
security. I think we are starting in that direction. Since 
September 11 we are doing more, but that is the direction we 
need to do. We need better technology. We need better 
engagement of the science and technology providers to address 
these problems.
    So again, thank you for inviting me.
    [The prepared statement of Dr. Cobb follows:]

Prepared Statement of Dr. Donald D. Cobb, Associate Director for Threat 
               Reduction, Los Alamos National Laboratory

    Thank you Mr. Chairman and distinguished members of the Senate 
Committee on Foreign Relations for inviting me here today to discuss 
the very important problem of potential terrorist attacks using 
radiological dispersal devices (RDDs), so-called ``dirty bombs.''
    I am Don Cobb, Associate Director for Threat Reduction at Los 
Alamos National Laboratory. I am responsible for all programs at Los 
Alamos directed at reducing threats posed by weapons of mass 
destruction--nuclear, chemical, biological. I personally have more than 
30 years experience working to reduce these threats.
    Let me begin by saying that one needs to consider the RDD threat in 
the broader context of threats posed by nuclear terrorism and, in turn, 
in the even broader context of all types of potential terrorism against 
the United States and our allies. The events of September 11 show 
clearly that terrorists want to inflict as much damage as possible on 
our institutions and thereby strike at our core values.
    The spectrum of nuclear terrorist threats--starting with RDDs at 
the low end of the spectrum of violence and moving up through 
improvised nuclear explosives or stolen nuclear weapons is a fearsome 
challenge. We must consider these together in the context of the 
terrorist's intention to inflict maximum damage.
    Unfortunately, there is no silver bullet that will protect us from 
these threats. Rather we must have a systematic approach that provides 
us with defense in depth. The good news is that a systematic approach 
is possible against the spectrum of nuclear terrorist threats, but it 
will take much hard work and continued investments to achieve. And of 
course there is ultimately no foolproof system against all possible 
threats. But the beginnings of such a system against the most 
pernicious threats is starting to emerge after a decade of effort 
starting with the Nunn-Lugar program.
    Allow me to illustrate what I mean by a few examples. We have been 
working with the Russians for several years now to secure nuclear 
weapons and materials through the National Nuclear Security 
Administration's Materials Protection, Control, and Accounting Program. 
Experts generally believe that the nuclear weapons in Russia are more 
secure than the nuclear materials. In any case there are hundreds of 
tons more weapons-usable materials scattered at sites across the former 
Soviet Union not in weapons than there are materials in weapons. Of 
course we can't ignore the security of the weapons, but the materials 
are perhaps the greater danger. The Baker-Cutler report calls this, 
``the most urgent unmet national security threat to the United 
States.''
    It seems logical to ask, can we extend the MPC&A program to cover 
radiological sources as well as weapon-usable materials? It is these 
sources that are least well protected, and have a special concern for 
RDDs. The answer appears to be yes. At least the NNSA officials 
responsible for the MPC&A program are working with their Russian 
counterparts to move in this direction.
    Another NNSA program, called the Second Line of Defense (MPC&A 
being the first line), is working to establish detection systems at 
borders and transit points in Russia and the former Soviet countries to 
detect smuggled nuclear material. While the focus is on weapon-usable 
materials, these same systems with some modest modifications would also 
be effective against smuggled radiological sources, since the radiation 
signatures from such sources is generally much stronger than from 
uranium and plutonium.
    There are some major differences however. Nuclear weapons and 
weapon-usable materials tend to be focused in military applications 
under tight government oversight. There are international agreements 
and arrangements governing the authorized export and use of such 
materials. Radiological sources are more wide spread and have fewer 
controls. For example, there is not an export control regime for such 
sources comparable to the Nuclear Suppliers' Group for weapon-usable 
materials. It seems logical to use and extend these existing 
arrangements to at least the notification of intent to export large 
radiological sources.
    What is in effect the third line of defense consists of efforts to 
detect and intercept smuggled nuclear materials at U.S. borders and 
entry points. Most U.S. customs agents and emergency response teams in 
large cities have hand-held radiation sensors that can detect large 
radiological sources generally more easily than weapon-usable 
materials. But better technology is needed to detect and intercept 
nuclear materials, including radiological sources, concealed in 
luggage, packages, or shipping containers.
    Perhaps the biggest difference between nuclear weapons and weapon-
usable materials and radiological sources is the possibility of a 
terrorist obtaining radiological sources ``at hand'', rather than 
having to smuggle them into the United States. In the U.S., nuclear 
weapons and weapon-usable nuclear materials are under extremely tight 
security. Radiological sources, on the other hand, are more susceptible 
to theft or diversion, possibly by insiders.
    If the worst occurs, whether it is a terrorist attack involving an 
improvised nuclear explosive device using weapon material or an RDD 
using radiological material, it will be up to the emergency response 
forces to deal with the consequences. In the U.S. the NNSA's Nuclear 
Emergency Search Team (NEST) is the group that would be called upon in 
case of a nuclear-related terrorist attack. NEST actually consists of 
multiple capabilities ranging from searching for a nuclear device to 
protection of people and the environment from radiological harm whether 
the cause is accidental or deliberate. The men and women of NEST 
largely consist of volunteer experts from the national labs. We're 
proud of them.
    But more capability is needed considering the urgency of the threat 
post-September 11. We need more practice and training against realistic 
terrorist scenarios including RDDs. Clean up and wide-area radiological 
decontamination represent a huge challenge. We need to make investments 
in related science and technology now. We also need to upgrade our 
existing forensics and attribution capabilities against a heightened 
threat of nuclear terrorism.
    The Defense Science Board studies of 1997 and 2000 made similar 
recommendations regarding state-sponsored or trans-national nuclear 
terrorism. Since September 11 some of these recommendations have begun 
to be implemented. But the pace remains slow and the scope of the 
effort is not yet broad enough to cover the spectrum of nuclear 
threats, including RDDs. This work needs to be expanded and accelerated 
now.
    Finally I would like to point out that implementing these response 
measures just in the U.S. is not enough. We need to work to make sure 
that other countries have them as well, and Russia should be at the top 
of the list. The ability to locate and recover stolen nuclear 
materials, including weapon-usable or radiological sources, before they 
get out of the country should be a top priority. Notification that such 
a theft has occurred should also be a first priority. A Russia ``NEST 
program'' would be in our mutual interest. We should work to add this 
to the current list of successful cooperative programs, while we 
examine all of these programs from the perspective of their ability to 
counter the RDD threat.
    Thank you.

    The Chairman. Thank you. Actually, Dr. Koonin, maybe in 
light of the fact that you are fortunately here, and I may call 
on you again if I may, but maybe you should go forward with 
your presentation as well.

    STATEMENT OF DR. STEVEN E. KOONIN, PROVOST, CALIFORNIA 
             INSTITUTE OF TECHNOLOGY, PASADENA, CA

    Dr. Koonin. Mr. Chairman, my name is Steven E. Koonin, and 
today I want to discuss with you the threat of radiological 
terrorism. Before I do so, however, I would like to place my 
remarks in a broader context. The events of last fall have 
induced all of us to pay greater attention to the safety and 
defense of the civilian population in this country. 
Unfortunately, this is a very difficult problem, because the 
number of targets that a terrorist might go after is virtually 
unlimited, and the resources that we have available to defend 
them are finite. We are going to have to be making hard choices 
about what, and what not, to protect, and about what to protect 
against.
    Of course, not all threats are equal. The variables include 
the direct and indirect consequences of an attack, the 
likelihood of an attack, the vulnerability of the target, 
intelligence and warnings that we may have about the 
capabilities and intentions of an attacker, and the 
availability of plausible countermeasures.
    I applaud the initiative of you and this committee in 
defining and addressing these very important issues. In that 
context, I want to call your attention to one type of terrorist 
attack that I believe is a very serious threat, the deliberate 
dispersal of radioactive materials. These materials might be 
the weapons-grade materials that Dr. Meserve and Dr. Cobb have 
talked about--the uranium and plutonium that make up a nuclear 
weapon--or they might be ordinary radioactive sources, cobalt, 
cesium, iridium, and so on, that find many uses in society.
    The methods of dispersal could be explosive. We could be 
talking about the fallout from a successful or fizzled nuclear 
device, or they could be conventional, the so-called dirty 
bomb, in which conventional explosives are laced with 
radioactive material, or the dispersal could be covert, in 
which the radioactive material is contained in particles, 
aerosols, or perhaps in contaminated materials such as food.
    The intent of the terrorists may be severalfold. They might 
be intent on inducing casualties, perhaps immediately as the 
result of radiation sickness, or longer term, as the result of 
cancers that might be induced by radiation exposure. But more 
likely they are going to be after the psychosocial reactions 
that are associated with radiation. These are certainly likely 
to be far more widespread and significant than immediate or 
long-term casualties.
    In any case, a large-scale release of radioactive material 
could well entail significant costs, both directly in terms of 
cleanup expenses, and indirectly in terms of the economic 
disruption it induces.
    What I am going to describe for you in the next few minutes 
are the potential threat, as I see it, and some of the possible 
steps that could be taken to reduce it. You have already 
discussed my credentials. I think I will just skip over that, 
other than to say that I have been involved in national 
security matters for more than 15 years. My expertise is in 
nuclear physics, and more recently I have been involved in 
counterterrorism studies, both biological and chemical, as well 
as thinking about nuclear-related matters.
    It is true that radioactive materials find many uses in 
society, and so are quite common. They are indispensable for 
certain medical diagnostics and therapies. Perhaps less well-
known is that intense radioactive sources are used to sterilize 
food and medical instruments. Sources are also used in 
industrial radiography: to image equipment, and also, as Dr. 
Meserve mentioned, in the logging of oil wells. In addition, 
far less potent amounts of radioactivity are present in smoke 
detectors, antistatic devices, and exit signs. Many of these 
sources are harmless, and have no potential for terrorist 
misuse. There is also, of course, a significant amount of 
radioactivity contained in the spent fuel of the cooling ponds 
of the nuclear reactors that are about in our country.
    I have some images here that illustrate, for example, a 
radiography, a bone scan that was taken using a technetium 
source, and one can see in the pictures the infected area in 
this particular patient. Also shown in the upper right is an 
antistatic brush with a polonium source that is used in 
darkrooms, and in the lower right is one of the cooling ponds 
around a reactor.
    Even small amounts of radioactive material can be very 
disruptive. The sources of concern of long-lived isotopes range 
from 1 curie up to thousands of curies. If one were to take 
just 3 curies of an appropriate isotope, which is an amount 
that is a fraction of a gram, and disperse that over a square 
mile----
    The Chairman. Would you give me an idea what that is? Is 
that as big as the head of a needle, or this pen?
    Dr. Koonin. A gram is about a thirtieth of an ounce, so it 
is perhaps the size of a ball on a ballpoint pen or something 
like that.
    The Chairman. Thank you.
    Dr. Koonin. That amount of material would have to be 
diluted, of course. If it were spread over a square mile, that 
would make the area uninhabitable, according to the maximum 
dose currently recommended for the general population.
    It is important to note, however, that the health effects 
of such contamination would be minimal. For every 100,000 
people exposed to that level of radiation, four lifetime 
cancers would be induced, which would take place on top of the 
20,000 cancers already expected to arise from other causes.
    The Chairman. It is important that that gets straightened 
out. Without exposure to this 1 curie you just referenced, 
20,000 people out of 100,000 today, without any additional 
exposure, are likely to get cancer. This would increase that by 
four?
    Dr. Koonin. That is correct, four out of 20,000.
    The Chairman. So that is what you mean by the health 
effects would not be--it would be consequential for those four 
people, but it is not consequential in broad terms.
    Dr. Koonin. Of course. Of course, higher levels of 
contamination would----
    The Chairman. The higher level of contamination, I 
understand your point. I just wanted to make sure everybody 
gets this.
    Dr. Koonin. However, the psychosocial effects of such 
contamination would be maximal, as we know from Three Mile 
Island, Chernobyl, and other incidents. Radiation taps into a 
very deep fear and concern that people have. There are tens of 
thousands of significant sources of this size in the United 
States, and many more abroad. Here is a picture of one, to just 
give you a sense of the size. This is a 150-curie source that 
is used in industrial applications, and it weighs 53 pounds. 
All of that weight is shielding. It is a compact 6 inches by 6 
inches by 15 inches.
    The Chairman. And that is a device legally used?
    Dr. Koonin. That is correct.
    The Chairman. By shielding, you mean the lead that keeps 
this radioactive material from emanating from anywhere, other 
than when it is aimed and used for its purpose?
    Dr. Koonin. When the source is exposed, there is a 
mechanism in the box for exposing the source and, of course 
covering it up again.
    The Chairman. Thank you.
    Dr. Koonin. In my view, radiological terrorism is a very 
plausible threat. Here are some facts that summarize the 
situation for me. Gram-for-gram, radioactive material can be as 
disruptive as weaponized anthrax, not necessarily as dangerous, 
but as disruptive. Furthermore, this material circulates 
broadly through society. We produce it. It can be purchased 
with appropriate licenses, at low levels without a license. We 
ship it, we store it, we have mechanisms for disposing of it, 
and so on. So it is out there.
    Moreover, the expertise for handling it is widely known and 
readily acquired. In fact, you can take radiation safety 
courses from any number of commercial or nonprofit providers 
that teach you how to handle radioactive material safely.
    As Dr. Meserve emphasized, the safety and security of 
radioactive material depends upon the good faith and good sense 
of licensed end users. The Nuclear Regulatory Commission does 
the licensing. Inspections of the sources onsite are sporadic, 
in my understanding. This system was developed at a time when 
we were facing a cooperative or nonhostile environment. The 
situation post 9/11 has changed significantly. This array of 
facts does not leave me with a great deal of comfort.
    To make the threat a little more tangible, it is 
interesting to outline what a radiological attack might look 
like. You can imagine that a several-curie source was stolen, 
and that the source is dispersed covertly one night throughout 
the business district of a major city. There is then an 
anonymous tip the next morning, and officials detect widespread 
contamination at roughly three times the natural background 
level, which is well above the legal limit protecting the 
general population. They find this contamination over some 100 
blocks of the business district. The area would be evacuated 
immediately and sealed off, and we could expect that hundreds 
of thousands of people would be showing up at hospitals 
demanding to be screened for contamination.
    There would be, at this level of exposure, no fatalities 
from the radiation at all. However, the decontamination would 
take months. It is possible that buildings could not be 
economically decontaminated, and so dozens of them would have 
to be razed. In any event, there would be billions of dollars 
of economic damage.
    In thinking through this sort of scenario, it is 
interesting that dose limits play a major role. Currently, 
there is a very low legal dose limit that properly protects the 
general public in ordinary circumstances, but in some ways this 
dose limit works against us in this situation. It makes it 
possible to do great damage, both psychosocial and economic, 
with very small amounts of contamination.
    Further, the question of ``how clean, at what cost, and 
when?'' will inevitably have to be answered after any release. 
Given the discomfort that is evident in many public discussions 
of radiation, this is going to be a very difficult discussion.
    So what should be done? Let me offer a few high-level 
suggestions. One is to encourage alternative sources of 
radiation that can be turned off. There are accelerators, 
electrically driven neutron generators under development, and 
other devices that can substitute for radioactive materials in 
some circumstances, and there are regulatory, economic, and 
technological ways in which one might encourage those 
substitutions.
    Second, as has already been mentioned, it is very important 
that we strengthen controls on radioactive materials. Some 
infrastructure is already in place domestically in terms of the 
Nuclear Regulatory Commission, and internationally in terms of 
the IAEA.
    It is also very important for us to establish pathways that 
allow the retrieval, storage, and disposal of unwanted 
material. Currently, users have a very difficult time disposing 
of radioactive material.
    I believe it is also important that we think about tracking 
personnel with radiation expertise. These people would provide 
a pool of expertise in the event of a response, and a database 
of people who understand how to handle radiation may help 
provide indicators of terrorist preparations.
    Going further, we can think about the widespread deployment 
of radiation monitoring for the transport of large sources. 
Points of entry, choke points, luggage, and mail are all 
streams of material that should be routinely scanned for 
radiation sources.
    It is also possible to think about distributed sensor 
arrays. The technology to detect radiation is well-known, 
unlike that for biological or chemical agents. It is robust, 
relatively inexpensive, and one could well imagine deploying 
sensors more broadly throughout society than we do currently. 
Whatever sensor systems are put into place, it is very 
important that they be significantly tested and ``red-teamed'' 
if they are to continue to be effective.
    It is also, finally, important to educate and prepare the 
first responders and the public for the possibility of a 
radiological event. Again, this will likely not be simple, 
given the difficulty we have in talking about radiation.
    Let me, then, summarize. The dispersal of radioactive 
materials is, in my opinion, a plausible and significant 
threat. However, it is overwhelmingly likely that the effects 
of a terrorist attack using radioactive materials will be 
psychosocial and economic, not entailing a large number of 
deaths or illnesses, and there are steps that can be taken to 
prevent such acts.
    The first line of defense, as has already been mentioned, 
is the control of radioactive materials.
    Thank you.
    [The prepared statement of Dr. Koonin follows:]

    Prepared Statement of Dr. Steven E. Koonin, Provost, California 
                        Institute of Technology

    Mr. Chairman and members of the committee. My name is Steven E. 
Koonin and today I want to discuss with you the threat of radiological 
terrorism.
    Before I do so, however, I'd like to place my remarks in a broader 
context. The events of last fall have induced us all to give greater 
attention to the safety and defense of the civilian population. 
Unfortunately, this is a very difficult problem. Because the number of 
targets is virtually unlimited and the resources available to protect 
them are necessarily finite, hard choices have to be made about what, 
and what not, to protect, as well as what to protect against.
    Of course, not all threats are equal. In allocating defensive 
resources, the factors to consider include the direct and indirect 
consequences of a successful attack, the likelihood of an attack, the 
vulnerability of the target, intelligence and warnings of potential 
attacks, and the availability of effective defense measures. I applaud 
the initiative of this Committee in defining and addressing these very 
important issues.
    In that context, I want to call to your attention one type of 
terrorist attack that I believe to be a very serious threat: the 
deliberate dispersal of radioactive materials. These materials might be 
the weapons-grade metals used in nuclear weapons or the more common 
materials contained in radiation sources. The dispersal can be 
accomplished either through an explosive release (a nuclear device 
producing ``fallout'' or a conventional explosive that has been laced 
with nuclear material) or through a covert, and perhaps gradual, 
release of particulates, aerosols, or contaminated materials such as 
food. While the intent of the perpetrators might be to induce immediate 
or long-term casualties, far more widespread will be the intense 
psychosocial reactions associated with radiation. In any case, a large-
scale release of radioactive material could well entail significant 
costs through both direct clean-up expenses and the economic disruption 
induced. My goal here is to describe for you the potential threat that 
I see and offer some possible steps that could be taken to reduce it.
    My scientific credentials for this task are as follows. I am 
Professor of Theoretical Physics at the California Institute of 
Technology, as well as that institute's Provost. For more than 30 
years, the focus of my teaching and research has been in nuclear 
physics and I am the author of some 200 referred scientific 
publications in that field. I have also served as the Chair of the 
Division of Nuclear Physics of the American Physical Society. Beyond my 
academic credentials, I have been involved in National Security matters 
for more than 15 years. I currently chair the JASON group of academic 
scientists and engineers, which has a 40-year record of unbiased 
technical advice to the government on national security matters. I have 
also served on both the Pentagon's Defense Science Board and the Navy's 
CNO Executive Panel, and also chair the University of California's 
committee overseeing the national security aspects of the Los Alamos 
and Lawrence Livermore National Laboratories. More specifically related 
to counter-terrorism, I led a DARPA-chartered JASON study of Civilian 
Biodefense issues in 1999, and served this Fall on Defense Science 
Board panel looking broadly at terrorism vulnerabilities. While my 
testimony is informed by these experiences, particularly discussions 
with my JASON colleagues, the words and opinions expressed are my own.
    Radioactive materials are common in society. Their importance in 
medical diagnostic and therapeutic procedures is well-known. Less well 
known, but equally important, is the use of intense radioactive sources 
to sterilize food and medical instruments and to image industrial 
equipment (including the logging of oil wells). Far less potent amounts 
of radioactive materials are used in smoke detectors, anti-static 
devices, and self-illuminating exit signs. Many of these sources are 
harmless and have no potential for terrorist misuse. There is also a 
very large amount of radioactivity contained in the spent fuel in the 
cooling ponds at nuclear power reactors.
    Sources ranging from a few to thousands of curies could be employed 
for terrorist purposes. If just three curies (a fraction of a gram) of 
an appropriate isotope were spread over a square mile, the area would 
be uninhabitable according to the recommended exposure limits 
protecting the general population. While direct health effects would be 
minimal (for each 100,000 people exposed, some 4 cancer deaths would 
eventually be added to the 20,000 lifetime cancers that would have 
occurred otherwise) the psychosocial effects would be enormous.
    I believe that radiological terrorism is a plausible threat. Gram 
for gram, radioactive material can be at least as disruptive as 
weaponized anthrax. Further, the material circulates broadly through 
society. There are tens of thousands of significant, long-lived sources 
in the U.S. and many more abroad; they are produced, purchased, stored, 
and transported through ordinary channels. The expertise to handle them 
is widespread and/or readily acquired (radiation safety courses are 
offered regularly; you can sign up on the web), And the safety and 
security of these materials relies on the good faith and good sense of 
the end-users, who are licensed by the Nuclear Regulatory Commission. 
This array of facts does not leave me with a great deal of comfort.
    One scenario of how a terrorist attack using radioactive material 
might play out is as follows. A several-curie source of a long-lived 
isotope is stolen and covertly released one evening throughout the 
business district of a major city. Acting on an anonymous tip the next 
morning, officials verify widespread contamination over a 100 block 
area at roughly three times the natural background level, well above 
the legal exposure limit protecting the general population. That area 
is immediately evacuated and sealed off as hundreds of thousands of 
people rush to hospitals demanding to be screened. Businesses in the 
area are shutdown during the many months of decontamination that 
follow; dozens of buildings are razed. Economic damage runs into the 
billions of dollars, but there are no direct fatalities.
    Most important in thinking through the situation are the widespread 
fear of radiation and the low legal dose limits protecting the general 
population. These latter make the terrorists' task easier in at least 
two respects. First, even very low levels of contamination, comparable 
to the natural background level in many locales, will be very 
disruptive. Second, in decontaminating any site, the question of ``How 
clean, at what cost, and in what time?'' will eventually have to be 
answered; that will not be easy.
    There are several kinds of measures that can be taken to prevent 
terrorist attacks using radioactive materials, or at least make them 
more difficult to carry out. Through various economic, regulatory, and 
technological mechanisms, one can encourage migration of legitimate 
users from radioactive sources to radiation sources that can be turned 
off, such as accelerators and electrically-driven neutron generators. 
However, this will not be possible for all applications. Strengthened 
controls on radioactive materials are therefore an important step; 
fortunately, some of the infrastructure is already in place through the 
NRC and the IAEA. Also important would be the establishment of pathways 
to retrieve, store, and dispose of unwanted radioactive materials. The 
tracking of personnel with radiation expertise also seems a good idea, 
as this would provide both a registry of trained responders in the 
event of an incident, as well as be of assistance in detecting 
terrorist preparations.
    Widespread radiation monitoring to detect large sources as they are 
moved about would be very useful. One would start with ports of entry, 
transportation chokepoints, rail, plane, and ship cargo, and mail. 
Going further, it is not difficult to imagine widely deployed radiation 
detectors (``one on every lamp post''). In contrast to detectors for 
biological and chemical agents, the monitoring technology is well-
established, the power and maintenance requirements are likely to be 
minimal, and the specificity and robustness will be high. Whatever the 
character and extent of radiation monitoring, it will be important to 
significantly test and ``red-team'' the system.
    Before an incident occurs, it is important to educate the first 
responders and the public as to the nature of this threat, the probable 
consequences an incident (i.e., few casualties, maximal disruption), 
and how they can be managed. This will likely not be simple given the 
unease evident in many public discussions of radiation.
    In summary, I believe that the deliberate dispersal of radioactive 
materials is a significant and plausible threat. However, it is very 
likely that the predominant effects will not be casualties, but rather 
psychosocial consequences and economic disruption. Fortunately, there 
are a number of steps that can be taken to reduce the likelihood and 
impact of such an attack, beginning with the strengthening of controls 
on radioactive materials.

    The Chairman. Thank you very much. I have a number of 
questions, and with your permission I may ask that we not 
overburden you, that we may be able to submit some questions in 
writing to you if that is appropriate. That is, if you agree.
    Let me begin with you, Dr. Cobb, and you have all made--and 
it is important, I guess, I continue to make the distinction 
between a radiological device dispensing radioactive material 
in one form or another, and an improvised nuclear device. 
People talk about a bomb. The way it is thought about in the 
popular culture in the last couple of months is that there is a 
conventional explosive, radioactive material around that, the 
bomb goes off, the curies are dispersed throughout an area, 
depending upon how much radioactive material there is. There is 
a relationship between the intensity, the amount of the 
radiation that someone is exposed to and the duration of the 
radiation, is that correct?
    Dr. Cobb. That is correct.
    The Chairman. And there is a second device, and the second 
device is an actual nuclear explosion, where you have weapons-
grade material, plutonium-enriched uranium, and either through 
a gun mechanism or some other mechanism they are at high speed 
pushed together, they cause a reaction, that reaction is 
explosive, that reaction has three features to it. One, there 
is a big blast, depending on the size of that weapon, a single 
kiloton or megaton--I mean, it depends upon the size, and that 
relates to the amount of material, correct?
    Dr. Cobb. That is correct.
    The Chairman. And it has three effects. One, there is a 
blast. For example, we discussed yesterday if the similar 
amount of energy--we will have this testimony this afternoon. 
If a similar amount of energy that was released when the World 
Trade Towers came down as a consequence of the explosion that 
took place because of the jet fuel, if a similar amount were to 
take place with a nuclear device, instead of that building 
taking sometime to come down, it would be down in a matter of--
--
    Dr. Cobb. Virtually instantaneously. We are talking about 
140 tons of high explosive equivalent being released in one 
moment.
    The Chairman. So it would come down immediately?
    Dr. Cobb. Very quickly.
    The Chairman. A second effect is, there is actual radiation 
released.
    Dr. Cobb. Right.
    The Chairman. That is in relatively high doses, in high 
doses that if people are in that area they have ill effects, 
and the third is fire. There is a high intensity heat, and so 
you have buildings burning. You have fire, in layman's terms, 
is that correct?
    Dr. Cobb. That is correct.
    The Chairman. Now, there is a phrase that--I thought I knew 
a fair amount about this, all the years doing arms control 
issues and the like. I had not until recently heard the 
abbreviation. All of the national security kinds of issues all 
have acronyms, and I had not heard of, I think you referred to 
it as an improvised nuclear device, an IND. Is that what you 
refer to it as?
    Dr. Cobb. That is correct.
    The Chairman. So people are going to begin to hear about 
IND's, improvised nuclear devices.
    Now, Dr. Harold Agnew, the former director of Los Alamos 
Laboratory said, ``for those who say that building a nuclear 
weapon is easy, they are very wrong, but those who say that 
building a crude device is very difficult are even more 
wrong.'' Now, I am quoting him. Recent reports about a possible 
10 kiloton nuclear weapon being smuggled into Manhattan last 
fall thankfully proved to be false, but I do not think anyone 
would suggest we should be complacent. As President Bush 
reportedly declared, nuclear terrorism in fact is the most 
serious danger to the U.S. national security today, and so what 
I would like to discuss for just a moment, what are the primary 
barriers facing an outfit like al-Qaeda, or other terrorist 
groups in seeking to acquire or construct an improvised nuclear 
device?
    Dr. Cobb. The answer is clearly controlling the nuclear 
weapon-capable materials, the highly enriched uranium and 
plutonium. These are very specialized materials. Generally, 
because they are specialized materials, they are under 
government control.
    We mentioned earlier in the discussion that certainly in 
Russia, Russia pops up to the top of the list because there is 
hundreds of tons of these materials at various sites, and it is 
a good thing that over the past 10 years we could work with the 
Russians to help increase the security, because they are 
concerned about these issues as well, but the first and last 
answer to that question always comes around to controlling 
materials.
    Once the materials get out, the nuclear weapons-capable 
materials, the ability to fashion, construct, even the 
intention to do so in some strange way, you might say, somebody 
could be lucky if they have the materials. If their intention 
is to make it go off, they might be able to do it. That is the 
concern. So it is controlling the materials, keeping them out 
of the wrong hands.
    The Chairman. Now, when we talk about materials, I am not 
going to go into it in open session, but yesterday we actually, 
though one of your colleagues, know that you folks at the 
laboratories have been ahead of the game here in that you have 
been concerned about this possibility for sometime, and that 
you have actually constructed devices to see how difficult or 
how hard it would be to determine, to be able to make an 
informed judgment of how difficult it would be for an informed 
or uninformed terrorist to build a device, and that would make 
this nuclear reaction take place, and there are various 
concerns.
    One is the wholesale purchase of a device, and we went 
through yesterday in closed session the kinds of devices that 
would theoretically be on the top of the wish list for a 
terrorist out there trying to purchase such a device, and they 
genuinely relate to how compact, and the size.
    You cannot buy an SS-18 and pack it in your bag and take it 
over to the United States, or even know how to fire it. An SS-
18 is one of the big Soviet missiles with considerable throw 
weight, multiple warheads independently targeted, et cetera. 
But there are devices, nuclear devices that weaponize, nuclear 
devices that are smaller.
    The second thing we were told is that there is the concern 
about being able to construct a device that could cause this 
nuclear reaction, and therefore the devastation that would 
follow, and the somewhat good news that I took away from that 
was that such a device within the realm of possibility ends up 
being a fairly heavy device. It is not something you can pack 
in a suitcase. It is not something you can disperse out of the 
back of a moving vehicle. It is not something that you can 
carry onto a plane, et cetera.
    But nonetheless, there is literature out there that is 
available to anyone with--and I told you yesterday I had a 
friend who used to say he was not the brightest candle on the 
table. He passed away, but he had a lot of common sense. He 
said, Joe, you have to know how to know. There are folks out 
there who know how to know, and how to get an open source 
material, if not literal diagrams, cookbooks for how to 
actually--and it is difficult, but cookbooks on how to build 
the device that would cause the nuclear reaction to take place 
with relatively small amounts. The larger the amounts get, the 
more complicated this all gets.
    Now, what I am leading to is this. I would like you to, if 
you can, speak to how difficult it is not to get the material, 
that is, the enriched uranium, or the plutonium, the weapons-
grade material that causes this nuclear chain reaction, but how 
difficult is it to get the material that would be required to 
construct, without describing it, construct the thing that 
would make it go boom, the apparatus in which this material is 
placed to cause the chain reaction, and I am trying to be 
articulate without being specific, and I am probably doing 
neither.
    Dr. Cobb. In terms of the discussion here, I would say 
there is a lot of information. Some of it is incorrect, some of 
it is just speculation, but there is a lot of information that 
is out that is available that might lead a terrorist group to 
think they could do something whether they could or not, and 
the key to stopping them, again I would go back to say is, the 
materials that are most difficult for them to get would be, at 
least from their perception I believe would be, the hardest 
thing for them to do would be to get the nuclear materials 
themselves, and so that is always still back to the focus that 
I said earlier.
    The other thing I might mention, you were talking about a 
spectrum of potential threats, and I am glad you raised that 
again because if we have to face these kinds of threats then we 
need to be prepared for a whole spectrum of possibilities, and 
I mentioned the nuclear support team earlier. Our folks, some 
of the thinking we are doing is not because we know that these 
are the specific threats we are going to face tomorrow. It is 
just that the possibility may occur, so we have got to be 
prepared, so a lot of this is about just thinking and preparing 
in advance.
    The Chairman. Well, I want to make that clear as well. I 
have received, and I will continue to urge all of my colleagues 
in the Senate to receive, a detailed briefing from the 
intelligence community as to what we know has occurred or has 
not occurred, and what we know or believe is being sought and 
what is not being sought, but it is no longer--I remember when 
I was first on the Intelligence Committee there was clear 
evidence that two individuals in other parts of the world had 
attempted to negotiate purchasing nuclear weapons. It was then 
a very classified idea.
    Since September 11 it has been discussed openly that there 
is a knowledge that there is a serious desired to purchase 
wholesale--the easiest way to do this is buy the finished 
product, not have to find the raw material and then construct 
from that raw material a device that would make it functional, 
causing the damage.
    Now, the other question I have for you is, just again 
without getting into classified information, it is clear--those 
of us who have worked in this area from the layman but 
policymaker side of the equation know that there are a number 
of nuclear scientists who are unemployed in the former Soviet 
Union. There are a number of people who, given the material, 
given the fissile material, it would not be beyond their 
capability to construct a very, as the phrase used by Dr. 
Agnew, a very crude device, a crude nuclear device.
    What kind of background does one have to have, and this may 
be beyond your scope here, but what kind of background, if any 
of you could speak to this, would one have to have in order to, 
given access to the material, be able to construct a device 
that could do significant damage, a nuclear device.
    Dr. Cobb. Clearly, this is the so-called brain drain 
problem, and what you are focusing on is the numbers of people 
who have direct knowledge of nuclear weapons and their 
construction and their design in the former Soviet Union.
    Now, through these cooperative programs with the Russian 
Federation, we meet some of our colleagues, and I can just say 
that the people that we talk to are patriots in their own 
country. We do not see that this brain drain is an epidemic of 
people leaving to go serve some other country.
    Having said that, it is a concern. Clearly, one person with 
this kind of information and knowledge can change the 
speculation from a maybe and a wish to something that is more 
scientifically or engineeringly certain, so it is a concern.
    The Chairman. To summarize my questions to you, and I will 
ask two more questions and yield to my colleague from Florida, 
and ask him to chair this because I will have to go to meet the 
President at 11.
    There are really sort of three elements, and this is Joe 
Biden speaking now. I am not trying to paraphrase you, but just 
so I understand it and can communicate this accurately to my 
mother--I have a very bright mother, but she always says to me 
when I try to explain what I think is a relatively complicated 
concept, she will look at me and say, Joey, speak English, so I 
want to make sure that I am able to, quote, speak English, as 
my mother would say, because I think it is important.
    My colleagues and I understand what it is we are facing in 
order to work with scientists and serious people like you to do 
all we can to diminish the prospect of any of this occurring. 
The first is, you need, for a nuclear device, not radiological, 
you need the raw material, which is enriched uranium, 
plutonium, there are other possibilities but those are 
primarily the ones, so-called fissile materials, and that is 
very difficult to get a hold of, although our concern relates 
primarily--is it correct, Dr. Meserve, we are fairly confident 
here in the United States that access to that material--nothing 
is impossible, I guess. Fort Knox could be held up, too, but it 
is like Fort Knox. We are talking about a great degree of 
difficulty, and requiring incredible sabotage or espionage for 
there to be a release of that material in a way that would go 
undetected, is that correct?
    Dr. Meserve. That is correct.
    The Chairman. So therefore we look at sources, and there 
are, the estimates I have--and I do not want to guess at it 
again, because my memory may not be correct, but there are more 
than several tons of this material in the Soviet Union, is that 
correct?
    Dr. Meserve. That is correct. The precise number may be 
classified, but there are more than hundreds of tons.
    The Chairman. And that is enough to make, if we were 
dedicated to do it and had it available, thousands of nuclear 
weapons, correct?
    Dr. Meserve. That is correct.
    The Chairman. Now, we do know that the Russians very badly 
want to protect that material, but in light of their economic 
and political circumstances, they are not nearly as equipped to 
do that as we are in the United States, and they have been 
working with us on threat reduction possibilities. This all 
goes to priorities for us, and what we fund and how we fund it.
    So first thing is, protect the source. The most open 
source, the most likely source, the most vulnerable source, 
although not porous, is the former Soviet Union, Russia in 
particular. Is that a fair statement?
    Dr. Meserve. That is correct.
    The Chairman. Would you think that, Dr. Cobb, as well?
    Dr. Cobb. I would agree.
    The Chairman. Now then, the second feat that has to be 
overcome beyond getting the material is having the engineering 
capability, building the box, building the thing, building the 
device that causes the nuclear reaction to take place, even if 
you have the material, correct?
    Dr. Cobb. Plausibly, yes.
    The Chairman. That relates to engineering know-how, some of 
which is available in the open literature. Some is correct, 
some is incorrect, some is accurate, some is inaccurate, and 
our concern relates to the degree of sophistication and 
knowledge and background, nuclear and engineering background of 
the individual who is tasked to do that, so Joe Biden would 
have great difficulty doing that.
    As a history and political science major, and a lawyer I 
would have great difficulty doing that, but someone with real 
scientific background and knowledge, and particularly if they 
had worked in the nuclear arena, might not have as much 
difficulty, correct?
    Dr. Cobb. That is fair.
    The Chairman. And the material that would be needed to 
construct such a device, those materials are available on the 
open market because they are used for other things as well, 
correct, most of them?
    Dr. Cobb. To a certain extent.
    The Chairman. And then the third thing to be concerned, so 
we have to look at either if there are materials that could be 
used in such a device, we have to deal with controlling those 
materials to the extent we can if they are not enriched uranium 
or plutonium, that is the canister, the thing that causes this 
reaction to take place, and there is more vulnerability there, 
because many of those elements are used for legitimate 
purposes.
    And the last piece, then, is that the degree to which our 
intelligence services are able to detect and to interface with 
other intelligence communities to try to get ahead of the curve 
here to determine who may be engaged in such activity, and we 
are working on that to determine whether we beef up our 
intelligence capacity and our intelligence capability, but 
there is one piece that I am not fully--I am not fully 
cognizant of all those pieces, but I am not as certain about, 
and that is the ability to detect the material, the fissile 
material that produces the release of nuclear energy, and that 
is the plutonium or enriched uranium.
    Now, if I try to smuggle across a border or into a building 
a radiological material, a material that is not adequately 
shielded, we have devices now, do we not, that are in the 
conventional market that could detect me walking into a 
building with radiological material in a briefcase, a suitcase, 
unless it was fully shielded, and then the more material I 
have, the more shielding is required, the heavier it is, so 
there are other ways to look for this material, other than just 
merely detecting, is that correct, Dr. Meserve?
    Dr. Meserve. That is correct. There is some intricacy here 
having to do with the type of material, but basically, for many 
of the materials of concern here, not highly enriched uranium 
or plutonium, there are detection devices one could have at 
ports of entry, or going into buildings, or at airports, or 
what-have-you, to be able to detect them.
    The Chairman. We discussed yesterday in one nonclassified 
portion of this, if someone were to smuggle in radiological 
material in a canister, a so-called dirty bomb in a canister--
excuse me, a cargo container that theoretically we are able to 
detect one of two things, either based on the shipment we can 
detect mass that is designed to shield the radiological 
material, which would give us a heads-up to take a look at it, 
or actually detect, have a little geiger counter go off and 
say, there is radiological material in this big old cargo 
container, and theoretically that is possible to attach to the 
crane that picks this device up off a ship and puts it on the 
back of a tractor trailer, or have a device where you go 
through just like a metal detector, where the canister or 
vehicle goes through a metal detector, in effect, and gives you 
some reading as either the density of the material that is 
there, and/or the radiological reading, is that correct?
    Dr. Meserve. That is correct.
    The Chairman. Now, I know it is much more complicated and 
more detailed than this, but I am trying to get at the second 
issue that Dr. Cobb raised yesterday that I think is very 
important that we focus on, at least that we focus on, and that 
is that I think the average person would think it would be 
easier to detect fissile material, plutonium, uranium being 
transported than it would be to detect a radiological material 
because of the consequences.
    People think the greater the consequence, the danger, I 
think instinctively they think, well, the easier it would be 
able to detect it. In fact, that is not true, is it? In fact, 
it is very difficult for us to be able to detect, whether or 
not in a suitcase, in an aircraft, on a train, on a plane, in a 
cargo ship there is enriched uranium or plutonium, is that 
correct?
    Dr. Cobb. Well, let me comment. I think we have been 
working for years--I think Dr. Koonin pointed out that 
radiation sensors, devices to do detection, the physical 
principles are pretty well understood, and we have worked on 
these for a long time, and we focused on actually the weapons-
usable materials, uranium and plutonium, so I guess I would 
only quibble with the comment that it may be difficult, but 
there are approaches that have been developed over the years to 
do the detection.
    And without going into a lot of details about different 
kinds of radiological sources and the radiation they emit, in 
some sense you do get almost for free, because you have been 
working the uranium problems and plutonium problems, some 
capability to detect these other types of materials.
    The Chairman. The reason I mentioned that, and I will cease 
with this, is that again, in terms of priority for 
policymakers, and we are talking about taking limited dollars 
to deal with threats that are posed, if we could, if we could 
develop on a larger scale, and with more precision, detection 
devices that would expose the presence of nuclear-capable 
material, that is enriched uranium, plutonium, et cetera, that 
that is something we physically would be able to improve on and 
do, but it comes down to a question of, we have not done it 
extensively yet. I imagine it is fairly costly.
    For example, when we talk about borders, one of the 
questions that my friend from Florida and I talk about 
privately is, he represents the State of Florida. There are 
millions upon millions, over the period of time, of cargo 
containers on ships that come into his state, and so should we 
be looking at ports of embarkation where this material, where 
things leave--whether it is Le Havre, or whether it is London, 
whether it is Vladivostok, wherever, a cargo container is 
placed on a ship. Should we begin--and I am not asking you the 
question unless you want to answer it, should we begin to 
negotiate trade agreements with other countries saying, we want 
to be able to inspect on the dock, at the port of embarkation, 
materials that are being sent to us?
    I mean, there is a lot we have to think about. That is the 
only point I am trying to get to, but it is within the realm of 
scientific possibility and capability to be able to enhance the 
prospect of detecting the transfer of this weapons-grade 
material, is it not?
    Dr. Cobb. I think it is consistent with the thought that 
you need as much layers in your protection as you can afford 
and you can put in place.
    Dr. Meserve. Senator, if I might add a thought, however, I 
think the consequences, if this material were to come into the 
United States and were to be exploited by a terrorist, are so 
severe that you would need to look at the whole range of 
options to be able to deal with it.
    Probably the single most effective thing that we could do 
is to try to control these materials at the source, because of 
the difficulty in detection. We have long borders and there is 
the possibility that something could get through. Control at 
the source is the one place where we really could assure 
ourselves of great progress. I think that ought to remain the 
place where our attention is primarily focused, not to 
discourage these other things as well as backup, part of a 
defense in depth.
    The Chairman. Well, I have never before, and I am not 
deliberately now standing up a President of the United States--
it is almost 11--but there are other colleagues there, and I am 
sure he will not miss me, and I hope they will allow me to 
enter this meeting late, but let me conclude with one comment, 
or one question and one comment.
    Dr. Koonin, your presentation has been extremely helpful, 
and I truly appreciate the fact that you have emphasized, as 
all of you have, that the life-threatening consequences of the 
easiest--if I may, the easiest radiological terrorist 
activities that they could undertake are de minimis, but part 
of this is, I am of the view that educating the public as to 
the nature of the threat and the consequences of the action 
enhance our ability significantly to deal with it.
    I said to you gentlemen yesterday, and this is pure 
conjecture on my part, and I will probably get 10,000 letters 
disagreeing with me, but God forbid we have another anthrax 
letter, of weapons-grade anthrax, or something approaching 
that. I have a feeling the American public will adjust to it 
and move through it with a greater degree of confidence than we 
did before, because we know more, and we know that at the end 
of the day, as devastating as it was, there were a half dozen 
or so people who lost their lives, incredibly bad.
    That was terrible, but it is not what I think some people 
envisioned, that I would go home during this period and people 
would say to me, am I going to open up my mail and will my 
whole family die, and will the neighborhood be taken down, et 
cetera, and so I think there is a sense of proportion that is 
being established here.
    It is an awful reality we have to deal with. It is a shame 
we have to be educated about this at all, so I appreciate, 
doctor, you putting this in a context, but my question is, it 
is clear that handling radioactive material, you can learn how 
to do it, but it is still a difficult process, the larger the 
amounts and the greater the danger one is exposed to.
    What about the handling of plutonium and enriched uranium? 
How difficult is it to physically handle, assuming you got 
access to it?
    Dr. Koonin. If you want to do it safely, it is very 
difficult, and we have facilities at the national laboratories 
that are very secure, expensive, safe, in order to do just 
that. However, if you are willing to die for what you are 
doing, then it would be quite easy to deal with large amounts 
of highly enriched uranium [HEU], or plutonium.
    Radiological materials could induce death within minutes to 
hours, but again you do not need a very strong source in order 
to cause a lot of trouble.
    The Chairman. The last thing I would like to do is thank 
the panel and ask your indulgence that if we desire to have you 
back at another time, whether you would be willing to consider 
giving us the benefit of your wisdom, and possibly in a 
slightly different context for an additional hearing. Would you 
be willing to do that?
    Dr. Meserve. Of course.
    The Chairman. Thank you.
    Senator Nelson. Mr. Chairman, I have to be presiding at 11.
    The Chairman. I am sorry I did not give you a chance to ask 
questions. I thought you were able to stay.
    Senator Nelson. I understand you are going to recess this 
until 2:30.
    The Chairman. Yes, I am going to recess the hearing until 
this afternoon. I started my day at 5 a.m. as my father 
underwent a minor operation this morning at 6 a.m., so we are 
going to recess until 2:30. I realize Drs. Meserve and Cobb are 
unable to return this afternoon. Are you able, Dr. Koonin, to 
be available at 2:30?
    Dr. Koonin. I am, indeed.
    The Chairman. We will resume at 2:30 with Dr. Kelly, Dr. 
Koonin, and Dr. Vantine, and I appreciate your indulgence, 
gentlemen. Thanks for the accommodation. I appreciate it a 
whole lot. We are in recess until 2:30.
    [Whereupon, at 10:55 a.m., the committee adjourned, to 
reconvene at 2:30 p.m., the same day.]

                              ----------                              


                           AFTERNOON SESSION

    The committee met, pursuant to notice, at 3 p.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Joseph R. Biden, 
Jr. (chairman of the committee), presiding.
    The Chairman. The hearing will reconvene. It seems all I'm 
doing today is apologizing to witnesses, and I do apologize. 
You're all incredibly busy and important men, and what you have 
to say is of great consequence to us, and I do apologize.
    We had--as the Senator from Florida probably told you, we 
had President Mubarak here, and we had a little followup with 
the President a moment ago. There's a judge the President is 
interested in. At any rate--it is hard to say, ``I've got 
witnesses waiting''--but, unfortunately I'm not able to help 
them. But, having said that, why don't we begin?
    And let me invite Dr. Kelly, if you would be willing to 
make your statement. And, by the way, we owe something beyond 
the glass of water we're giving Dr. Koonin. He was here this 
morning, and he is here this afternoon, and he has been kept 
waiting in the meantime.
    Dr. Kelly, I introduced you, in your absence this morning, 
by pointing out that you are here to discuss a recent FAS study 
on the effects of dirty radiological bombs. And I understand 
you're going to show us some specifics of how such a device may 
affect American cities. And you've spent over 7 years as 
Director of Technology in the White House Office of Science and 
Technology, and you've worked at the Congressional Office of 
Technology Assessment, where you were an Assistant Director of 
what is now known as the National Renewable Energy Laboratory.
    So, doctor, why don't you begin, and then we will go to Dr. 
Vantine, who gave us a great presentation yesterday, as well, 
and I will introduce him at that time. Please proceed.

   STATEMENT OF DR. HENRY C. KELLY, PRESIDENT, FEDERATION OF 
              AMERICAN SCIENTISTS, WASHINGTON, DC

    Dr. Kelly. Thank you very much, and I certainly appreciate 
the committee's attempt to try to understand this very 
difficult subject and bring what we think is a very critical 
problem to the public's attention. I would like to begin by 
thanking two of my colleagues here, two physicists, Mike Levi 
and Robert Nelson, who have worked with FAS to do the analysis.
    The Chairman. Thank you for being here, gentlemen.
    Dr. Kelly. So what I'm going to do here is concentrate on 
the impact of radiological attacks using comparatively small 
amounts of radioactive material. And I guess I have three main 
points I want to make here. First is that the threat of an 
attack using these radiological materials----
    The Chairman. For years and years in the Senate, I served 
either as chairman or ranking member with Senator Thurmond, and 
he had the best explanation. He said, ``You've got to speak 
into the machine.'' With all our great technology, you will 
notice that this hearing room has a terribly inadequate PA 
system, and poor Bertie has to work with it all the time. But 
you have to speak right into the machine, as Senator Thurmond 
would say.
    Dr. Kelly. I remember reading a candidate in New York City 
spoke to 20,000 people in 1960, and I always wondered--without 
any amplification. So those were the days when lung-power 
counted.
    The Chairman. He was obviously desperate.
    Dr. Kelly. Well, what I want to do is make three points. 
The first is that the danger presented by radiological attack 
is very real and credible. Anything of significant size is not 
going to be trivial to undertake, but it's certainly not beyond 
the capacity of a sophisticated organization.
    A second point is that any attack that makes any reasonable 
sense is not going to kill a large number of people. If that is 
your aim, this is not the appropriate tool, nor will it even 
injure a large number of people, so that it will be a 
comparatively small number of people that will be getting 
radiation sickness from this kind of attack. The main danger is 
contaminating significant areas with material that would 
require very expensive cleanup and could be extremely 
disruptive and could, without proper emergency response, create 
considerable panic. And, of course, you could deny economic use 
of large areas.
    Now, one of the things that needs to be put on the table to 
put this in perspective, what you did this morning, is that 
this needs to be clearly distinguished from a nuclear weapon. 
This doesn't create an explosion. A nuclear weapon would be 
killing tens, hundreds of thousands of people, and it is an 
order of magnitude different. And so that this issue needs to 
be kept in perspective.
    And I guess my third point is that--the good news in all of 
this is that, while this is a new class of threats that we need 
to take seriously, there are a number of very constructive 
things that we can do to vastly reduce the threat. This is a 
problem which, compared to a lot of the other things we're 
facing, is fairly solvable.
    Now, let me just quickly go through why we think this is a 
problem. And the problem is basically that we are using 
radioactive materials in many parts of our economy--and this, 
again, was discussed this morning--but they're extremely 
valuable in application--from making food safe, to medical 
facilities, to finding oil, smoke detectors, many other things 
we count on for our economy. So they are distributed in quite 
large numbers around the United States and around the world.
    Now, in the past, our main concern about nuclear materials 
has been, in the first instance: Is there enough material to 
make a nuclear weapon? And we have, certainly in the United 
States and in most parts of the world, made very sure that we 
have control of any amount of radioactive material that could 
be used to make a weapon. And----
    The Chairman. Do you have a high degree of confidence in 
that statement, doctor?
    Dr. Kelly. I certainly have it in the United States. You 
discussed the problem of controlling it in the former Soviet 
Union, and I think it is a real problem, but in the United 
States, our Department of Energy and the national labs have 
done, I think, a spectacular job of maintaining control over 
this material. So that means that there are smaller amounts of 
material and radioactive samples that are used--that cannot be 
used to make a nuclear weapon. And, in the past, of course, our 
main concern about this stuff has been making sure that the 
workers who are handling it were well protected, that it wasn't 
lost or stolen or led to public health dangers of one kind or 
another. There was concern about theft, but mainly because it 
had the economic value. Somebody would steal it for--often by 
accident, using it for scrap metal, but there was never any 
thought of malicious intent, other than an honorable thief 
looking for a quick buck.
    The notion that someone would steal this material for 
malicious intent and actually try to turn it into a 
radiological weapon has created a whole new class of threats, 
and that is what has put this issue on the table on what to do 
about that.
    What we have done is some very simple calculations just to 
show the danger presented by many of the classes of materials 
that are out there. What we have done is use a computer program 
that is used to help emergency-response teams understand what 
areas might be contaminated.
    So I'm just going to take two examples. One is a very small 
piece of cesium, roughly the size of the piece of cesium that 
was found in North Carolina a couple of weeks ago that had 
accidentally found its way into a steel mill. And let's see if 
I can get the technology to work for me. We're assuming you 
simply blow this material up at the foot of Capitol Hill. And 
what happens is, if----
    The Chairman. How much material are we talking about now in 
this slide? \1\
---------------------------------------------------------------------------
    \1\ This reference is to slides of maps being displayed by Dr. 
Kelly during his testimony. The maps are part of his prepared statement 
that begins on page 37.
---------------------------------------------------------------------------
    Dr. Kelly. Well, it's 2 curies, the size of the material 
that was found in North Carolina. And we've assumed that it's 
broken up into tiny particles and settles around Capitol Hill. 
And I have--we've calculated three circles here. The inner 
circle, the smaller one, you have one chance in a hundred of 
getting cancer in that area. Now, that's roughly the risk that 
is taken already by a nuclear worker, radiation workers. So 
over their lifetime, they get roughly the same exposure. So at 
least for that class of people, we would, you know, have been 
willing to take that risk. The middle ring is one chance in a 
thousand of getting cancer. And the outer ring is one chance in 
ten thousand.
    Now, this assumes that you are--to get this cancer risk, 
you have to be there for--you have to live there for 40 years 
to get that level of risk.
    The Chairman. So it's not merely that if you're intially 
exposed to this--let's say you're walking down the mall--that 
looks like the mall or the ellipse.
    Dr. Kelly. Yes, I think----
    The Chairman. What you have there?
    Dr. Kelly. Yes.
    The Chairman. You're walking down the mall, and this thing 
would go off. If you're in the first small circle, and you are 
immediately evacuated from that area, is your risk still one in 
a hundred?
    Dr. Kelly. Oh, no. You would have to--your risk would be--
the risk of--if you just walked out of here, your risk would be 
almost non-existent. The only people likely to be hurt in this 
are likely to be hurt either by the weapon itself, the 
explosion----
    The Chairman. The actual explosion, right.
    Dr. Kelly [continuing]. Or if there's panic----
    The Chairman. Yes.
    Dr. Kelly [continuing]. Which is something you want to be 
worried about. So the reason for showing these contours, 
however, is that the areas that are exposed----
    The Chairman. Right.
    Dr. Kelly [continuing]. Have to be cleaned up.
    The Chairman. Right.
    Dr. Kelly. And one of the problems in the outer ring is the 
EPA threshold that was actually discussed earlier. It's the 
Superfund threshold, one in ten thousand. Now, one thing you 
have to understand about that level is that it's an extremely 
low level or risk. It's about--we're saying you have one chance 
in twenty of dying of cancer, in any event, and this makes it--
increases it by this one in ten thousand. So this is--you're 
also exposed to a background level of radiation all the time. 
No amount is good for you, but we get it from cosmic rays, we 
get it from radon from the soil. You know every--you're rolling 
the dice every time one of these radioactive rays goes through 
your body. And so the more times you roll the dice, the higher 
your probability is. But this increases the risk only about--by 
a factor of one-twentieth above background.
    Nonetheless, it is the level that EPA sets as the area 
which they recommend decontamination. And one of the dilemmas 
you face is that this stuff is pretty hard to decontaminate. In 
the case of cesium, it binds to asphalt and concrete. It can 
get into the air-conditioning system. And if anything like--if 
it had gotten into the Hart Office Building, you couldn't, for 
example, just pump chlorine into it and kill this stuff. I 
mean, it is very hard to get out and, in many cases, you 
probably would have to demolish the buildings or reconsider 
whether this threshold really makes sense, because this is a--
--
    The Chairman. Reconsider the one in ten thousand standard?
    Dr. Kelly. Yes. I mean, you'd be faced with that decision 
about----
    The Chairman. Yes.
    Dr. Kelly. Now, the second example I have is taking a 
comparatively large source of cobalt of the sort that is used 
in devices around the country, and detonating it at the tip of 
Manhattan. Now, here you see the rings are--these are the same 
three rings here, so you're basically----
    The Chairman. Rings are elliptically shaped because that 
represents wind--the direction of the wind, or whatever, just 
arbitrarily----
    Dr. Kelly. Yes; we just picked--low wind, but the wind just 
happened to be blowing to the northeast. Now, one of the things 
that I should emphasize is that all of these calculations--if 
you read the manual for the first-responder calculation, they 
say that the--there are huge errors associated with these 
calculations, because it depends on the tails of the wind and 
where the buildings are located and all sorts of other 
assumptions. So this is not an absolute forecast----
    The Chairman. Gotcha.
    Dr. Kelly [continuing]. But it's a reasonable scenario of 
what could happen. And again, you can see that you have, in 
this case, quite significant areas that are affected, including 
some agricultural areas you'd have to worry about. And the 
other point here, though, is that anybody who tries to actually 
handle this kind of material would have to be quite a 
sophisticated person, because just holding this--if you held or 
were close to one of these for even a few minutes, you'd get a 
fatal dose of radiation and be incapacitated within an hour. So 
this is not a simple task to do.
    I want to just give you another point of comparison. We 
tried to use the Russian standard at Chernobyl as a point of 
comparison, and given the contamination levels that would have 
come from this cobalt explosion that I was just describing, the 
inner ring is the area that the Russians closed permanently as 
a result of the Chernobyl accident. So this is just to give you 
an indicator of the----
    The Chairman. Is that the tip of Manhattan island we're 
looking at?
    Dr. Kelly. Yes, it's detonated right down at the tip.
    The Chairman. OK.
    Dr. Kelly. And, of course, this is a slightly different 
wind pattern that we've got----
    The Chairman. Yes.
    Dr. Kelly [continuing]. And it just goes up----
    The Chairman. Yes.
    Dr. Kelly. It's just to give you a sense of scale. But the 
point of this is--and again, you--the level of risks at the far 
end of this are high, but if you walk out of this thing, even 
in this case, very few people are going to be killed through 
direct effects. There are always freak events where you'd have 
a hot spot and some could get a high dosage, but this is not 
going to be--if people are safely evacuated, you're not going 
to be killing significant numbers of people.
    So the question at the end, then, is if this is quite a 
serious threat and a credible threat, as you said in your 
opening remarks, one of the things we all need to face up to 
here after September 11, is to take a very hardheaded look at 
the real risks faced by the United States and find out whether 
our resources are being aligned with where the real risks are 
and where we can do some good. This is clearly an area where we 
can do some good and where at least we believe the risks are 
quite high.
    And we have three classes of recommendations, which largely 
follow the statements that have already been made. There seems 
to be an amazing consensus here on how to proceed. First of 
all, you want to reduce opportunity for the terrorists or any 
malefactors to get hold of this material to begin with. Second, 
you'd like to have very early warning to detect any illicit 
movement of this. And, third, you want to minimize casualties 
and panic that would result if such an event actually occurred.
    And let me give a few specific things that I think would 
qualify in each one of those areas. I think we really do 
congratulate Dr. Meserve and the activities of the NRC to face 
up to this new class of challenge for his materials. But we 
plainly need to take a fresh look at the procedures under which 
people obtain high levels of radioactive materials, the safety 
and security procedures, and tracking these materials 
throughout their lifetime.
    Another thing we need to do is to beef up our intelligence, 
both through domestic police work and through close cooperation 
internationally, in making sure that we keep close track of 
both the legal and illegal movements of this material. And I 
should hasten to say that virtually every problem we're facing 
here in the United States is being faced in Europe and most 
parts of the world, so it really makes sense to approach almost 
all of these problems through international collaborations and 
perhaps even cost sharing where it's appropriate.
    One place where this might be particularly appropriate is 
looking for technical alternatives to radiation. Right now we 
use radioactive materials to sterilize food and to do logging 
and other things, because it's the cheapest way to do it. Now, 
what will happen if you start applying rigorous security to 
some of those facilities, the price of doing it that way might 
go up. And one thing that is likely to happen is that it will 
stimulate technology that is not high risk that could do the 
same job, maybe at a slightly higher price. And we think that 
it's probably appropriate for the laboratories and other 
organizations to actually engage actively in research and 
search for alternatives, particularly for these higher-level 
sources of radioactive material.
    One specific problem that people have had is that there's a 
lot of--is getting rid of radioactive material when it's no 
longer being used. And there are--it's a terrible problem, but 
if you've got a sample in a laboratory or in a company that's 
gone bankrupt or just is going to some other line of work, what 
do you do with this stuff? In most cases, the Department of 
Energy is the only organization allowed to come and pick the 
stuff up and move it to a safe site.
    And there's a program in DOE called the Offsite Source 
Recovery Project, which we think has been chronically 
underfunded. These are guys who just go out in trucks, locate 
these sources, pick them up and take them to a safe place. And 
it seems, to us, silly to have people who don't want this 
material forced to keep it because this program is underfunded.
    The second thing I mentioned was early detection, and there 
are a lot of--there's a need to put radiation detectors in many 
different pinch points, ports, bridges, tunnels, and other 
areas, and also a need to develop improved detectors. And there 
are a lot of things that can be done and are being done at the 
labs and other places to increase our ability to detect 
movement of all kinds. A lot of them are sophisticated systems 
where the more different detectors you network together, the 
better able you are to get patterns and eliminate false alarms. 
And we would strongly support increasing research and testing 
as well as deploying things we already know how to do.
    And then, finally, in the event that you actually do have 
an incident, there are--the first thing you need to do it to 
make sure that people who respond to the emergency are able to 
control panic and are able to treat any people who have real 
symptoms. Emergency response training is key. One very 
important thing is that this--an attack of this sort would 
generate a lot of panic. There was a case in Brazil where a 
large amount of cesium was released inadvertently in a 
neighborhood, and huge numbers of people in the town showed up 
at the emergency rooms. Some of them had radiation-sickness 
symptoms. They were nauseous and had physical symptoms. But 
only fewer than 10 percent of them actually had anything 
approaching dangerous levels of exposure. It was purely 
psychosomatic stress. And if the emergency responders aren't 
prepared to deal with this kind of problem and do instant 
triage, you could have chaos at the health facility.
    We have some concern that, while a lot of money is being 
directed into first-responder training, that there is a real 
need to take a tight, controlled approach to this rather than 
simply spread it out to all the states and hope for the best.
    The Chairman. Tight control of the training?
    Dr. Kelly. Yes. Things like quality control over the 
materials. There's a lot of people who are still training with 
obsolete information. And, as you know, we are learning, 
rapidly, new things about the nature of these threats and how 
to respond and trying to update everybody's field manual in the 
realtime is not a very practical thing to do. Fortunately, the 
Internet and other tools like this should make it easier to do 
that. You'd also like to have some kind of peer review or 
quality control for the materials which are being sent out to 
these people. And again, advanced information-based training 
systems seem to cry out for this.
    The Defense Department and the labs have started to work in 
this area, but we sense that there is a real need to get some 
infrastructure here to make sure that good material is easy to 
find and distributed quickly out to the very large number of 
people who need it. There are 2.7 million nurses and over a 
million police and fire alone, let alone emergency responders.
    So in the end, we're concluding that this is a very serious 
security problem from radiological attack, from sources that 
are spread throughout the economy. One of the things I haven't 
talked about is nuclear reactor fuel rods. Of course, these 
have many times more nuclear radioactive material in these rods 
than anything that I've been talking about. But also trying to 
acquire and move and manipulate these is also many times more 
difficult. So I haven't formally considered that here. But the 
good news, of course, is that with some prompt and very 
practical things, we can hugely reduce the risk of these kinds 
of attacks.
    I have to conclude by saying that in the long run, there's 
no way we can reduce this risk to zero. And one of the things 
we plainly need to do is to try to find a way to build a world 
where the kind of people who would even contemplate this kind 
of attack aren't being bred and trained. But I really do thank 
the committee for engaging this. I think it's very timely, and 
I look forward to being able to work with you.
    [The prepared statement of Dr. Kelly follows:]

  Prepared Statement of Dr. Henry C. Kelly, President, Federation of 
                          American Scientists

                              introduction
    Surely there is no more unsettling task than considering how to 
defend our nation against individuals and groups seeking to advance 
their aims by killing and injuring innocent people. But recent events 
make it necessary to take almost-inconceivably evil acts seriously. We 
are all grateful for the Committee's uncompromising review of these 
threats and its search for responses needed to protect our nation. 
Thank you for the opportunity to support these efforts.
    My remarks today will review the dangers presented by radiological 
attacks, situations where nuclear materials that could be released, 
without using a nuclear explosive device, for the malicious propose of 
killing or injuring American citizens and destroying property. Our 
analysis of this threat has reached three principle conclusions:

          1. Radiological attacks constitute a credible threat. 
        Radioactive materials that could be used for such attacks are 
        stored in thousands of facilities around the U.S., many of 
        which may not be adequately protected against theft by 
        determined terrorists. Some of this material could be easily 
        dispersed in urban areas by using conventional explosives or by 
        other methods.
          2. While radiological attacks would result in some deaths, 
        they would not result in the hundreds of thousands of 
        fatalities that could be caused by a crude nuclear weapon. 
        Attacks could contaminate large urban areas with radiation 
        levels that exceed EPA health and toxic material guidelines.
          3. Materials that could easily be lost or stolen from U.S. 
        research institutions and commercial sites could contaminate 
        tens of city blocks at a level that would require prompt 
        evacuation and create terror in large communities even if 
        radiation casualties were low. Areas as large as tens of square 
        miles could be contaminated at levels that exceed recommended 
        civilian exposure limits. Since there are often no effective 
        ways to decontaminate buildings that have been exposed at these 
        levels, demolition may be the only practical solution. If such 
        an event were to take place in a city like New York, it would 
        result in losses of potentially trillions of dollars.

    The analysis I will summarize here was conductd by Michael Levi, 
Director of the Strategic Security Program at the Federation of 
American Scientists (FAS), and by Dr. Robert Nelson of Princeton 
University and FAS.
                               background
    Materials are radioactive if their atomic nuclei (or centers) 
spontaneously disintegrate (or decay) with high-energy fragments of 
this disintegration flying off into the environment. Several kinds of 
particles can so be emitted, and are collectively referred to as 
radiation. Some materials decay quickly, making them sources of intense 
radiation, but their rapid decay rate means that they do not stay 
radioactive for long periods of time. Other materials serve as a weaker 
source of radiation because they decay slowly. Slow rates of decay 
mean, however, that a source may remain dangerous for very long 
periods. Half of the atoms in a sample of cobalt-60 will, for example, 
disintegrate over a five year period, but it takes 430 years for half 
of the atoms in a sample of americium-241 to decay.
    The radiation produced by radioactive materials provides a low-cost 
way to disinfect food, sterilize medical equipment, treat certain kinds 
of cancer, find oil, build sensitive smoke detectors, and provide other 
critical services in our economy. Radioactive materials are also widely 
used in university, corporate, and government research laboratories. As 
a result, significant amounts of radioactive materials are stored in 
laboratories, food irradiation plants, oil drilling facilities, medical 
centers, and many other sites.
A. Commercial Uses
    Radioactive sources that emit intense gamma-rays, such as cobalt-60 
and cesium-137, are useful in killing bacteria and cancer cells. Gamma-
rays, like X-rays, can penetrate clothing, skin, and other materials, 
but they are more energetic and destructive. When these rays reach 
targeted cells, they cause lethal chemical changes inside the cell.
    Plutonium and americium also serve commercial and research 
purposes. When plutonium or americium decay, they throw off a very 
large particle called an alpha particle. Hence, they are referred to as 
alpha emitters. Plutonium, which is used in nuclear weapons, also has 
non-military functions. During the 1960s and 1970s the federal 
government encouraged the use of plutonium in university facilities 
studying nuclear engineering and nuclear physics. Americium is used in 
smoke detectors and in devices that find oil sources. These devices are 
lowered deep into oil wells and are used to detect fossil fuel deposits 
by measuring hydrogen content as they descend.
B. Present Security
    With the exception of nuclear power reactors, commercial facilities 
do not have the types or volumes of materials usable for making nuclear 
weapons. Security concerns have focused on preventing thefts or 
accidents that could expose employees and the general public to harmful 
levels of radiation. A thief might, for example, take the material for 
its commercial value as a radioactive source, or it may be discarded as 
scrap by accident or as a result of neglect. This system works 
reasonably well when the owners have a vested interest in protecting 
commercially valuable material. However, once the materials are no 
longer needed and costs of appropriate disposal are high, security 
measures become lax, and the likelihood of abandonment or theft 
increases.
    Concern about the intentional release of radioactive materials 
changes the situation in fundamental ways. We must wrestle with the 
possibility that sophisticated terrorist groups may be interested in 
obtaining the material and with the enormous danger to society that 
such thefts might present.
    Significant quantities of radioactive material have been lost or 
stolen from U.S. facilities during the past few years and thefts of 
foreign sources have led to fatalities. In the U.S., sources have been 
found abandoned in scrap yards, vehicles, and residential buildings. In 
September, 1987, scavengers broke into an abandoned cancer clinic in 
Goiania, Brazil and stole a medical device containing large amounts of 
radioactive cesium. An estimated 250 people were exposed to the source, 
eight developed radiation sickness, and four died.
    In almost all cases, the loss of radioactive materials has resulted 
from an accident or from a thief interested only in economic gain. In 
1995, however, Chechen rebels placed a shielded container holding the 
Cesium-137 core of a cancer treatment device in a Moscow park, and then 
tipped off Russian reporters of its location. The only reported death 
from terrorist use of a radioactive material occurred when a Russian 
mafia group hid a radioactive source below the office chair of a 
businessman, killing him after a few days of exposure.
    Enhanced security measures at commercial sites that use dangerous 
amounts of radioactive material are likely to increase the cost of 
using radioactive materials and may possibly stimulate development and 
use of alternative technologies for some applications.
C. Health Risks
    Gamma rays pose two types of health risks. Intense sources of gamma 
rays can cause immediate tissue damage, and lead to acute radiation 
poisoning. Fatalities can result from very high doses. Long-term 
exposure to low levels of gamma rays can also be harmful because it can 
cause genetic mutations leading to cancer. Triggering cancer is largely 
a matter of chance: the more radiation you're exposed to, the more 
often the dice are rolled. The risk is never zero since we are all 
constantly being bombarded by large amounts of gamma radiation produced 
by cosmic rays, which reach us from distant stars. We are also exposed 
to trace amounts of radioactivity in the soil, in building materials, 
and other parts of our environment. Any increase in exposure increases 
the risk of cancer.
    Alpha particles emitted by plutonium, americium and other elements 
also pose health risks. Although these particles cannot penetrate 
clothing or skin, they are harmful if emitted by inhaled materials. If 
plutonium is in the environment in particles small enough to be 
inhaled, contaminated particles can lodge in the lung for extended 
periods. Inside the lung, the alpha particles produced by plutonium can 
damage lung tissue and lead to long-term cancers.
                              case studies
    We have chosen three specific cases to illustrate the range of 
impacts that could be created by malicious use of comparatively small 
radioactive sources: the amount of cesium that was discovered recently 
abandoned in North Carolina, the amount of cobalt commonly found in a 
single rod in a food irradiation facility, and the amount of americium 
typically found in oil well logging systems. The impact would be much 
greater if the radiological device in question released the enormous 
amounts of radioactive material found in a single nuclear reactor fuel 
rod, but it would be quite difficult and dangerous for anyone to 
attempt to obtain and ship such a rod without death or detection. The 
Committee will undoubtedly agree that the danger presented by modest 
radiological sources that are comparatively easy to obtain is 
significant as well.
    Impact of the release of radioactive material in a populated area 
will vary depending on a number of factors, many of which are not 
predictable. Consequences depend on the amount of material released, 
the nature of the material, the details of the device that distributes 
the material, the direction and speed of the wind, other weather 
conditions, the size of the particles released (which affects their 
ability to be carried by the wind and to be inhaled), and the location 
and size of buildings near the release site. Uncertainties inherent in 
the complex models used in predicting the effects of a radiological 
weapon mean that it is only possible to make crude estimates of 
impacts; the estimated damage we show might be too high by a factor 
often, or underestimated by the same factor. The following examples are 
then fairly accurate illustrations, rather than precise predictions.
    In all three cases we have assumed that the material is released on 
a calm day (wind speed of one mile per hour). We assume that the 
material is distributed by an explosion that causes a mist of fine 
particles to spread downwind in a cloud. The blast itself, of course, 
may result in direct injuries, but these have not been calculated. 
People will be exposed to radiation in several ways.

  <bullet> First, they will be exposed to material in the dust inhaled 
        during the initial passage of the radiation cloud, if they have 
        not been able to escape the area before the dust cloud arrives. 
        We assume that about 20% of the material is in particles small 
        enough to be inhaled. If this material is plutonium or 
        americium (or other alpha emitters), the material will stay in 
        the body and lead to long term exposure.
  <bullet> Second, anyone living in the affected area will be exposed 
        to material deposited from the dust that settles from the 
        cloud. If the material contains cesium (or other gamma 
        emitters) they will be continuously exposed to radiation from 
        this dust, since the gamma rays penetrate clothing and skin. If 
        the material contains plutonium (or other alpha emitters), dust 
        that is pulled off the ground and into the air by wind, 
        automobile movement, or other actions will continue to be 
        inhaled, adding to exposure.
  <bullet> In a rural area, people would also be exposed to radiation 
        from contaminated food and water sources.

    The EPA has a series of recommendations for addressing radioactive 
contamination that would likely guide official response to a 
radiological attack. Immediately after the attack, authorities would 
evacuate people from areas contaminated to levels exceeding these 
guidelines. People who received more than twenty-five times the 
threshold dose for evacuation would have to be taken in for medical 
supervision.
    In the long term, the cancer hazard from the remaining radioactive 
contamination would have to be addressed. Typically, if decontamination 
could not reduce the danger of cancer death to about one-in-ten-
thousand, the EPA would recommend the contaminated area be eventually 
abandoned. Decontaminating an urban area presents a variety of 
challenges. Several materials that might be used in a radiological 
attack can chemically bind to concrete and asphalt, while other 
materials would become physically lodged in crevices on the surface of 
buildings, sidewalks and streets. Options for decontamination would 
range from sandblasting to demolition, with the latter likely being the 
only feasible option. Some radiological materials will also become 
firmly attached to soil in city parks, with the only disposal method 
being large scale removal of contaminated dirt. In short, there is a 
high risk that the area contaminated by a radiological attack would 
have to be deserted.
    We now consider the specific attack scenarios. The first two 
provide examples of attacks using gamma emitters, while the last 
example uses an alpha emitter. In each case, we have calculated the 
expected size of the contaminated area, along with other zones of 
dangerously high contamination. The figures in the Appendix \1\ provide 
a guide to understanding the impact of the attacks.
---------------------------------------------------------------------------
    \1\ See figures 1 through 5 at end of statement.
---------------------------------------------------------------------------
              example 1--cesium (gamma emitter)--figure 1
    Two weeks ago, a lost medical gauge containing Cesium was 
discovered in North Carolina. Imagine that the Cesium in this device 
was exploded in Washington, DC in a bomb using ten pounds of TNT. The 
initial passing of the radioactive cloud would be relatively harmless, 
and no one would have to evacuate immediately. But what area would be 
contaminated? Residents of an area of about five city blocks, if they 
remained, would have a one-in-a-thousand chance of getting cancer. A 
swath about one mile long covering an area of forty city blocks would 
exceed EPA contamination limits, with remaining residents having a one-
in-ten thousand chance of getting cancer. If decontamination were not 
possible, these areas would have to be abandoned for decades. If the 
device was detonated at the National Gallery of Art, the contaminated 
area might include the Capitol, Supreme Court, and Library of Congress, 
as seen in figure one.
           example 2--cobalt (gamma emitter)--figures 2 and 3
    Now imagine if a single piece of radioactive cobalt from a food 
irradiation plant was dispersed by an explosion at the lower tip of 
Manhattan. Typically, each of these cobalt ``pencils'' is about one 
inch in diameter and one foot long, with hundreds of such pieces often 
being found in the same facility. Admittedly, acquisition of such 
material is less likely than in the previous scenario, but we still 
consider the results, depicted in figure two. Again, no immediate 
evacuation would be necessary, but in this case, an area of 
approximately one-thousand square kilometers, extending over three 
states, would be contaminated. Over an area of about three hundred 
typical city blocks, there would be a one-in-ten risk of death from 
cancer for residents living in the contaminated area for forty years. 
The entire borough of Manhattan would be so contaminated that anyone 
living there would have a one-in-a-hundred chance of dying from cancer 
caused by the residual radiation. It would be decades before the city 
was inhabitable again, and demolition might be necessary.
    For comparison, consider the 1986 Chernobyl disaster, in which a 
Soviet nuclear power plant went through a meltdown. Radiation was 
spread over a vast area, and the region surrounding the plant was 
permanently closed. In our current example, the area contaminated to 
the same level of radiation as that region would cover much of 
Manhattan, as shown in figure three. Furthermore, near Chernobyl, a 
larger area has been subject to periodic controls on human use such as 
restrictions on food, clothing, and time spent outdoors. In the current 
example, the equivalent area extends fifteen miles.
    To summarize the first two examples, materials like cesium, cobalt, 
iridium, and strontium (gamma emitters) would all produce similar 
results. No immediate evacuation or medical attention would be 
necessary, but long-term contamination would render large urban areas 
useless, resulting in severe economic and personal hardship.
         example 3--americium (gamma emitter)--figures 4 and 5
    A device that spread materials like americium and plutonium would 
present an entirely different set of risks. Consider a typical 
americium source used in oil well surveying. If this were blown up with 
one pound of TNT, people in a region roughly ten times the area of the 
initial bomb blast would require medical supervision and monitoring, as 
depicted in figure four. An area 30 times the size of the first area (a 
swath one kilometer long and covering twenty city blocks) would have to 
be evacuated within half an hour. After the initial passage of the 
cloud, most of the radioactive materials would settle to the ground. Of 
these materials, some would be forced back up into the air and inhaled, 
thus posing a long-term health hazard, as illustrated by figure five. A 
ten-block area contaminated in this way would have a cancer death 
probability of one-in-a-thousand. A region two kilometers long and 
covering sixty city blocks would be contaminated in excess of EPA 
safety guidelines. If the buildings in this area had to be demolished 
and rebuilt, the cost would exceed fifty billion dollars.
                            recommendations
    A number of practical steps can be taken that would greatly reduce 
the risks presented by radiological weapons. Our recommendations fall 
into three categories: (1) Reduce opportunities for terrorists to 
obtain dangerous radioactive materials, (2) Install early warning 
systems to detect illicit movement of radioactive materials, and (3) 
Minimize casualties and panic from any attack that does occur. Since 
the U.S. is not alone in its concern about radiological attack, and 
since we clearly benefit by limiting access to dangerous materials 
anywhere in the world, many of the measures recommended should be 
undertaken as international collaborations.
(1) Reduce access to radioactive materials
    Radioactive materials facilitate valuable economic, research and 
health care technologies. Measures needed to improve the security of 
facilities holding dangerous amounts of these materials will increase 
costs. In some cases, it may be worthwhile to pay a higher price for 
increased security. In other instances, however, the development of 
alternative technologies may be the more economically viable option. 
Specific security steps include the following:

  <bullet> Fully fund material recovery and storage programs. Hundreds 
        of plutonium, americium, and other radioactive sources are 
        stored in dangerously large quantities in university 
        laboratories and other facilities. When these materials are 
        actively used and considered a valuable economic asset, they 
        are likely to be well protected. But in all too many cases they 
        are not used frequently, resulting in the risk that attention 
        to their security will diminish over time. At the same time, it 
        is difficult for the custodians of these materials to dispose 
        of them since in many cases only the DOE is authorized to 
        recover and transport them to permanent disposal sites. The DOE 
        Off-Site Source Recovery Project (OSRP), which is responsible 
        for undertaking this task, has successfully secured over three-
        thousand sources and has moved them to a safe location. 
        Unfortunately, the inadequate funding of this program serves as 
        a serious impediment to further source recovery efforts. 
        Funding for OSRP has been repeatedly cut in the FY2001 and 2002 
        budgets and the presidential FY2003 budget proposal, 
        significantly delaying the recovery process. In the cases of 
        FY01 and FY02, the 25% and 35% cuts were justified as money 
        being tansferred to higher priorities; the FY03 would cut 
        funding by an additional 26%. This program should be given the 
        needed attention and firm goals should be set for identifying, 
        transporting, and safeguarding all unneeded radioactive 
        materials.
  <bullet> Review licensing and security requirements and inspection 
        procedures for all dangerous amounts of radioactive material. 
        HHS, DOE, NRC and other affected agencies should be provided 
        with sufficient funding to ensure that physical protection 
        measures are adequate and that inspections are conducted on a 
        regular basis. A thorough reevaluation of security regulations 
        should be conducted to ensure that protective measures apply to 
        amounts of radioactive material that pose a homeland security 
        threat, not just those that present a threat of accidental 
        exposure.
  <bullet> Fund research aimed at finding alternatives to radioactive 
        materials. While radioactive sources provide an inexpensive way 
        to serve functions such as food sterilization, smoke detection, 
        and oil well logging, there are sometimes other, though 
        possibly more expensive, ways to perform the same functions. A 
        research program aimed at developing inexpensive substitutes 
        for radioactive materials in these applications should be 
        created and provided with adequate funding.
(2) Early Detection
  <bullet> Expanded use of radiation detection systems. Systems capable 
        of detecting dangerous amounts of radiation are comparatively 
        inexpensive and unobtrusive. Many have already been installed 
        in critical locations around Washington, DC, at border points 
        and throughout the U.S. The Office of Homeland Security should 
        act promptly to identify all areas where such sensors should be 
        installed, ensure that information from these sensors is 
        continuously assessed, and ensure adequate maintenance and 
        testing. High priority should be given to key points in the 
        transportation system, such as airports, harbors, rail 
        stations, tunnels, highways. Routine checks of scrap metal 
        yards and land fill sites would also protect against illegal or 
        accidental disposal of dangerous materials.
  <bullet> Fund research to improve detectors. Low-cost networking and 
        low-cost sensors should be able to provide wide coverage of 
        critical urban areas at a comparatively modest cost. A program 
        should be put in place to find ways of improving upon existing 
        detection technologies as well as improving plans for 
        deployment of these systems and for responding to alarms.
(3) Effective Disaster response
    An effective response to a radiological attack requires a system 
capable of quickly gauging the extent of the damage, identifying 
appropriate responders, developing a coherent response plan, and 
getting the necessary personnel and equipment to the site rapidly. The 
immediate goal must be to identify the victims that require prompt 
medical attention (likely to be a small number) and to ensure that all 
other unauthorized personnel leave the affected area quickly, without 
panic, and without spreading the radioactive material. All of this 
requires extensive training.

  <bullet> Training for hospital personnel and first responders. First 
        responders and hospital personnel need to understand how to 
        protect themselves and affected citizens in the event of a 
        radiological attack and be able to rapidly determine if 
        individuals have been exposed to radiation.
      There is great danger that panic in the event of a radiological 
        attack on a large city could lead to significant casualties and 
        severely stress the medical system. Panic can also cause 
        confusion for medical personnel. The experience of a 
        radiological accident in Brazil suggests that a large number of 
        people will present themselves to medical personnel with real 
        symptoms of radiation sickness--including nausea and 
        dizziness--even if only a small fraction of these people have 
        actually been exposed to radiation. Medical personnel need 
        careful training to distinguish those needing help from those 
        with psychosomatic symptoms. While generous funding has been 
        made available for training first responders and medical 
        personnel, the program appears in need of a clear management 
        strategy. Dozens of federal and state organizations are 
        involved, and it is not clear how materials will be certified 
        or accredited. Internet-based tools for delivering the training 
        will almost certainly be necessary to ensure that large numbers 
        of people throughout the U.S. get involved. In the U.S., there 
        are over 2.7 million nurses and over a million police and 
        firefighters who will require training, not to mention the 
        medics in the U.S. armed services. However, there appears to be 
        no coherent program for developing or using new tools to 
        deliver needed services, and to ensure that training and 
        resource materials are continuously upgraded and delivered 
        securely.
  <bullet> Decontamination Technology. Significant research into 
        cleanup of radiologically contaminated cities has been 
        conducted in the past, primarily in addressing the possibility 
        of nuclear war. Such programs should be revisited with an eye 
        to the specific requirements of cleaning up after a 
        radiological attack. As demonstrated above, the ability to 
        decontaminate large urban areas might mean the difference from 
        being able to continue inhabiting a city and having to abandon 
        it.
                               conclusion
    The events of September 11 have created a need to very carefully 
assess our defense needs and ensure that the resources we spend for 
security are aligned with the most pressing security threats. The 
analysis summarized here shows that the threat of malicious 
radiological attack in the U.S. is quite real, quite serious, and 
deserves a vigorous response. Fortunately, there are a number of 
comparatively inexpensive measures that can and should be taken because 
they can greatly reduce the likelihood of such an attack. The U.S. has 
indicated its willingness to spend hundreds of billions of dollars to 
combat threats that are, in our view, far less likely to occur. This 
includes funding defensive measures that are far less likely to succeed 
than the measures that we propose in this testimony. The comparatively 
modest investments to reduce the danger of radiological attack surely 
deserve priority support.
    In the end, however, we must face the brutal reality that no 
technological remedies can provide complete confidence that we are safe 
from radiological attack. Determined, malicious groups might still find 
a way to use radiological weapons or other means when their only goal 
is killing innocent people, and if they have no regard for their own 
lives. In the long run our greatest hope must lie in building a 
prosperous, free world where the conditions that breed such monsters 
have vanished from the earth.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Well, thank you, Dr. Kelly. After Dr. Vantine 
speaks, I have some questions I'd like to pursue with you, as 
well as Dr. Koonin, on this.
    But, doctor, welcome. I indicated this morning, when I 
opened the hearing, that we had had a very good briefing, in a 
secure setting. And some of what each you had to say we felt 
was not prudent to repeat here or was classified and could not 
be repeated in this setting. And at any time in your 
presentation, any question that I ask--which is unusual for us 
to do, but important--that I know what I don't know, and 
therefore I know you know more than I know--and therefore if 
you conclude, classified or otherwise, that it is better not to 
respond to the question in open session, all you have to do is 
indicate that. I'd appreciate it, and we'll pursue it in closed 
session.
    You all have acknowledged and been willing to come back for 
the larger session I want to set up for my colleagues, the 
entire Senate, and the first briefing, more detailed and 
classified briefing we received. And so we'll have an 
opportunity to pursue that. But I leave you to your own 
judgment, and I thank you again for the briefing yesterday, and 
I'm sure we'll benefit from the testimony today.

  STATEMENT OF DR. HARRY C. VANTINE, DIVISION LEADER, COUNTER-
 TERRORISM AND INCIDENT RESPONSE, LAWRENCE LIVERMORE NATIONAL 
                   LABORATORY, LIVERMORE, CA

    Dr. Vantine. Thank you, Mr. Chairman, for the remarks. And 
thank you for the opportunity to talk before you this 
afternoon.
    By way of introduction, I'm Harry Vantine. I lead the 
program at the Lawrence Livermore National Laboratory in 
Counter-terrorism and Incident Response. I've been a member of 
the Emergency Response Program at Livermore for 20 years, so I 
have quite a bit of experience in these fields.
    As you mentioned, yesterday, in closed session, we talked 
about the threat to homeland security posed by terrorist use of 
improvised nuclear devices and radiological dispersal devices. 
What I'd like to do today is to talk about means by which we 
can go forward and protect the United States against the 
terrorist threat. And to that end, I've prepared some written 
testimony. I ask that that be submitted into the record.
    The Chairman. It will be placed in the record.
    Dr. Vantine. Thank you, Mr. Chairman. What I'd like to do 
is start out by giving a little bit of background about the 
current emergency-response program in the United States.
    As you know, there are over 40 agencies involved in 
emergency response and counter-terrorism in the United States, 
and they all play a role. And the essential progress that we'll 
make in this country is the progress we'll make by those 
agencies working together cooperating and coordinating.
    One thing that strikes me, though, is that whenever a 
matter of nuclear expertise comes up, those questions get 
referred to the Department of Energy. The requests come from 
many agencies. They can come from the FBI. They can come from 
State, Transportation. But the Department of Energy is the 
repository of nuclear knowledge.
    We have a program at Energy, the NEST program, emergency-
response program, and we try to respond to all requests for 
information. And to the extent that we can, we do.
    Now, the program, as has been talked about this morning, is 
a volunteer program. We have limited resources. And so when 
requests come in, we have to prioritize those requests. And the 
way that we prioritize the requests is by looking at the threat 
to life that the particular area might pose. For instance, we 
look at the improvised nuclear device and the biological weapon 
as those terrorist devices that can cause the greatest loss of 
life. And so we prioritize--give those the highest priority. 
There's been a lot of discussion at today's hearing about----
    The Chairman. Doctor, I want to make something clear.
    Dr. Vantine. Sure.
    The Chairman. I'd like you to clarify it, because I think 
it's an important point that most people don't know. When 
you're contacted by the FBI, when you're contacted by any of 
these 39 other government agencies, about the content of the 
prospect of the particular circumstance that has occurred, that 
is not included in your yearly budget at the laboratory. That 
is work done, as you said, on a volunteer basis. Is that 
correct?
    Dr. Vantine. That's correct, Mr. Chairman.
    The Chairman. Which I think is probably the most astounding 
and stupid thing that I have heard us do of late, that we do 
not--knowing that the one place where the expertise resides, we 
don't provide you--I know you're not here asking for resources, 
but that we don't provide you the resources so this need not be 
a volunteer effort. Or am I missing something on that?
    Dr. Vantine. Mr. Chairman, let me explain the rationale. 
The rationale is that we have major programs at the 
laboratories looking at nuclear matters. We have the National 
Nuclear Stockpile Program. We have many experts----
    The Chairman. Which I hope we can keep going, by the way.
    Dr. Vantine [continuing]. In many fields. Thank you. We 
have experts in many fields in nuclear weapon design, 
detection, diagnostics, engineering. Those people, many of 
those people, have volunteered, in the case of a national 
crisis, to respond. And so when a request comes in, they do 
respond. So that's the rationale.
    With the heightened concern about terrorist use of nuclear 
materials since September 11, it may be time to revisit that. 
In the past, that has worked, though.
    The Chairman. Yes.
    Dr. Vantine. Now, improvised nuclear devices, as I said, 
and biological weapons are at the top of our list. What I'd 
like to do is spend a few minutes talking about what an 
improvised nuclear device is and what a radiological dispersal 
device is.
    An improvised nuclear device, as its name implies, is a 
nuclear device. It produces nuclear yield, and the yield has 
catastrophic effects. And we talked about some of those effects 
yesterday. Those effects are generally well known. They're in 
the open literature. And I think the public has a keen 
awareness of the catastrophic effects of nuclear weapons.
    If you consider what would have happened if the World Trade 
Center terrorist attacks had been a nuclear attack, the effects 
would have been much more catastrophic than they were.
    The Chairman. Of the same proportions as it relates to the 
release of energy. Make the comparison for me.
    Dr. Vantine. That's right. There has been an estimation of 
the effects of the two airplanes crashing into the World Trade 
Center, that they carried the chemical equivalent of a kiloton 
of energy. Now, normally we don't express chemical energy in 
kilotons, because chemical energy is released over a longer 
time than the blast from a high explosive. But in terms of raw 
energy, those airliners carried the chemical equivalent of 
about a kiloton of energy.
    If that kiloton had been a nuclear device, the effects 
would have been immediate and much longer-range. The loss of 
life would have been at least two orders of magnitude--a 
hundred times larger, maybe more, so that it would have been 
much more catastrophic. It just emphasizes, punctuates the 
point, that nuclear weapons are much more deadly than their 
chemical equivalents.
    The other thing that I would point out is that dealing with 
the aftermath of an improvised nuclear device would really be 
horrific. The rescue workers who tried to go back to ground 
zero would see radiation levels that were just enormous. In 
certain parts near ground zero, radiation workers just would 
not be able to reenter. The radiation levels would be too high. 
Further away from ground zero, there would have to be 
evacuation because of fallout. So there would be a long-term 
consequence, a long-term evacuation needed, and clean up. And, 
of course, clean up would produce enormous quantities of 
radioactive material that would have to be disposed of, and 
that would be no mean feat.
    So that, in a nutshell, is why we're really concerned about 
improvised nuclear devices. The effects are tremendous, and 
loss of life is just enormous.
    Now, if a terrorist decides not to pursue the idea of 
building a nuclear device and, instead, tries to build what has 
been called a radiological dispersal device, or a dirty bomb, 
they would try to get radioactive material, as has been 
described by both Dr. Koonin and Dr. Kelly. This requires the 
acquisition of radiological material and some kind of a 
dispersal mechanism. And radioactive materials are used around 
the world for a variety of purposes--medical, industrial, and 
research. And standards for handling the material are in place, 
and the United States has high standards.
    But if you read stories in the world press--some of those 
have been referred to today--controls around the world--those 
stories in the press suggest that current controls are just 
maybe not adequate for protecting some of this radiological 
material.
    The effects of radiological dispersal devices vary fairly 
widely, and they are measured in terms of contamination area, 
which we've talked about this morning, health effects, and 
economic consequences. The health effects appear to be small. 
The economic consequences can be very large. The psychological 
effects can be very large. These things are hard to quantify, 
and we certainly need to guard against radiological dispersal 
devices.
    Now, you know, it's interesting. I mean, there are things 
that we can do. And in the paper that I'm submitting, I'm 
suggesting some of those. One of the things that you'd like to 
do, of course, to guard against both improvised nuclear devices 
and radiological dispersal devices is you'd like to protect the 
material. And so if you can protect the material, keep the 
terrorists from getting it, that's your first measure of 
protection.
    At the next level, you'd like to have some indications and 
warning. If somebody was planning something, you'd like to see 
it. You'd like to get some indications of that. One of the 
advantages that we have is that we understand, if somebody is 
trying to build an improvised nuclear device, what they have to 
do, what kinds of materials they need. There are certain 
signatures and indicators, and we can look for those, and we do 
look for those.
    Going on, search and interdiction is an important area. 
There are two major areas I'd like to talk about in trying to 
improve our search and interdiction capability. One is a 
technology area. We should try to build better detectors. We 
have ideas for better detectors, detectors that are longer-
range, detectors that are smarter, detectors that use computers 
to try to take the man out of the loop, to interpret the 
signals coming from the detectors. So better detectors is the 
first part of the equation.
    The second part of the equation is to try to integrate 
those detectors into some kind of a system. The technology 
fails if we're just throwing this technology over a wall 
without anybody to catch it. What we really need to do is 
integrate these detectors into systems. And so I'm going to 
propose two ideas for systems here. There are probably others. 
These two have to do with protecting the borders and protecting 
the cities.
    The idea of protecting the borders, a system that might 
help to do that is a system that looks at cargo containers 
coming into the United States. You could put detectors at the 
cargo sites and try to find these materials before they find 
their way into the country.
    The idea of protecting cities is to look internal to the 
borders, to look at cities, to put out distributed sensor 
network systems, networks of sensors that sense the motion of 
materials and identify the transport and then are hooked into 
an infrastructure system that allows us to interdict those 
shipments. So those are ideas in the area of search.
    The next area I'd like to talk about a little bit is 
consequence management. We tend not to think about the 
consequences of an improvised nuclear device or a radiological 
dispersal device, because it's not a very pleasant thing to 
think about. And at that point, there's a feeling of 
hopelessness. The event has occurred, you've been unsuccessful 
in stopping it. But we really have to think about that. We have 
to think about what we do, how we protect the public.
    We need to educate the public. We have to understand what 
stories we would tell the public about what's happened. We 
can't start looking at the problem when it happens. We really 
have to look at the problem before it happens. And so we need 
to do that. The public needs to be educated. There have to be 
emergency response plans in place. There have to be 
decontamination procedures exercised and embedded.
    And then the final area I think we need to work on is what 
I'll call forensics analysis or attribution. Here we are, 3 
months after the anthrax events, still don't know who the 
perpetrator was, still looking for that. That's really not an 
acceptable position to be in. We need to develop forensic 
methods to look at the forensic evidence whenever somebody uses 
a weapon of mass destruction, to go back and understand who did 
it. And those forensic methods need to be quick, and they need 
to be precise. And so that's something that we really need to 
do.
    Traditional forensics labs don't handle radiological 
materials. They don't handle chemical weapons. They don't 
handle biological weapons. They handle fingerprints, DNA, that 
sort of thing.
    The DOE laboratories have started forensics work looking at 
weapons of mass destruction. I think that's work that needs to 
be supported. And we're doing a lot in that area, and I think 
there's more to be done. I think there's more that we could do.
    So let me kind of wrap up and make some points about where 
we are with improvised nuclear devices and radiological 
dispersal devices. In my opinion, the use of an improvised 
nuclear device is a low-probability event, but it is a high-
consequence event. And, for that reason, it's a high-risk 
event, and it's something we need to prepare for.
    We've talked about use of radiological dispersal devices. 
They're dirty bombs. Those are higher-probability events, 
because the material is more readily available, but they are 
certainly lower-consequence events.
    As September 11 has shown us, we don't know where the 
terrorists are going to strike. We don't know how they're going 
to strike. We need to be prepared for all of these events, and 
we need to be thinking about vulnerabilities in our 
infrastructure.
    I think the most important message that I would try to give 
today is that there is no silver bullet in dealing with weapons 
of mass destruction. We really need a layered approach. We need 
to look at many different systems to counter the terrorist 
threat. Coordination among the many different agencies is 
vital. And I have seen a real improvement, I would say, in the 
coordination among different agencies, since September 11. We 
are working together, the different agencies. I think we could 
do more in the future. I think planned exercises and drills is 
a way to do more.
    As has been mentioned many times today, the key to 
protecting the country against weapons of mass destruction, 
against INDs, is to protect the materials. And I think no 
effort should be spared in trying to protect materials, 
particularly the strategic nuclear materials, out of which an 
improvised device could be made. We need to look for signatures 
that people or groups are trying to obtain weapons of mass 
destruction and try to get some early indications and warning.
    And, finally, let me say that I think this area of 
emergency response is one where we're going to have to make a 
sustained investment in science and technology to win the war 
on terrorism. There are too many places that a terrorist can 
strike. They have too many opportunities to rely on traditional 
law-enforcement methods. I think technology is going to have to 
play a part, and I think we're going to have to look for 
advanced technologies to protect us.
    In closing, I'd like to say that we've been aware of this 
problem of weapons of mass destruction for a number of years. 
The NEST team goes back 30 years. We've been involved in this 
program for a long time. We are aware of it. We're committing 
resources to it. And we've done a lot. And I think since 
September 11, we've done a whole lot. I think we could do more. 
I think we need to do more in the future.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Vantine follows:]

   Prepared Statement of Harry C. Vantine, Ph.D., Program Leader for 
 Counter-terrorism and Incident Response, Lawrence Livermore National 
                               Laboratory

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today. I lead the program in 
Counterterrorism and Incident Response at the Lawrence Livermore 
National Laboratory (LLNL). However, the opinions that I present today 
represent my views and not necessarily those of the Laboratory or the 
National Nuclear Security Administration. Yesterday, in closed session, 
I discussed the threat to homeland security posed by terrorist use of 
improvised nuclear devices or radiological dispersal devices. Today I 
would like to focus on what we can do to protect the U.S. against 
terrorist acquisition and use of nuclear WMD.
    Let me start by briefly defining improvised nuclear devices (INDs) 
and radiological dispersal devices (RDDs).
                       improvised nuclear devices
    An IND, as its name implies, is a nuclear explosive device. It 
produces nuclear yield, and this nuclear yield has catastrophic 
effects. An IND is the ultimate terrorist weapon and terrorist groups 
are actively attempting to acquire nuclear weapons. Detonation of an 
IND could dwarf the devastation of the September 11 attack on the World 
Trade Center.
    Dealing with the aftermath of an IND would be horrific. Rescue 
efforts and cleanup would be hazardous and difficult. Workers would 
have to wear full protection suits and self-contained breathing 
apparatus. Because of the residual radioactivity, in certain locations 
they could only work short times before acquiring their ``lifetime'' 
dose. As with the Chernobyl event, some rescue workers might well 
expose themselves to lethal doses of radiation, adding to the casualty 
toll. Enormous volumes of contaminated debris would have to be removed 
and disposed of.
                     radiological dispersal devices
    If a terrorist group decides not to pursue an actual nuclear 
device, it might well turn to RDDs or ``dirty bombs'' as they are often 
called. RDDs spread radioactivity but they do not generate nuclear 
yield, The fabrication of an RDD requires radioactive material and a 
dispersal mechanism. Radioactive materials are used all over the world 
for medical, industrial, and research applications. Standards for safe 
handling and accountability of radioactive material vary around the 
world. Stories in the press suggest inadequate controls on radiological 
materials in parts of the world.
    The effects of an RDD vary widely, and are measured in terms of 
contamination area, health effects to the exposed population, and 
economic consequences. Even a negligible, but measurable, exposure 
would exploit the general public's fear of things radioactive and have 
significant psychological consequences. The greatest impact of a small 
release would probably be economic, associated with cleanup and 
restoration of the contaminated area.
               multilayered defense against inds and rdds
    So, what can we do to protect the U.S. against terrorist 
acquisition and use of INDs and RDDs? As with every other aspect of the 
terrorism problem, there is no silver bullet. A layered strategy is 
required, addressing the various stages on this threat.
Weapons and Material Protection
    Since acquiring the nuclear materials is a prerequisite to the 
fabrication of an IND or RDD, first and foremost we must protect 
nuclear weapons and special nuclear material. Extensive safeguards are 
in place in this country to protect weapons-usable nuclear materials; 
Security at weapon storage sites is rigorous. The NNSA's Material 
Protection, Control, and Accounting (MPC&A) program is making essential 
enhancements to the security of nuclear materials at dozens of sites 
across Russia.
    Switching to commercial radiological and nuclear facilities, two 
threats need to be considered. One is the theft of materials by 
terrorists and the other is attack on a facility to disperse 
radiological or nuclear materials. Facilities may include reactors, 
waste and storage areas. A high-level risk assessment should be 
performed of U.S. and relevant foreign radiological and nuclear 
facilities to provide an integrated national view of vulnerabilities. 
This high-level assessment and analysis of proposed controls would 
supplement and update current assessments. It would include additional 
research and development needed for protection. This summary assessment 
and corresponding recommended measures should be distributed to 
appropriate agencies/facilities for implementation.
    The September 11 terrorists clearly demonstrated considerable 
technical innovation, excellent operational security, and extensive 
financial backing. We should therefore conduct enhanced threat 
assessments that include some threats beyond the current design basis 
threat. These outside-the-box threats should be analyzed for high-risk 
or strategic potential targets, based upon likelihood and consequence. 
The results would be used to guide intelligence gathering and enhance 
protection of sites and facilities.
Indications and Warning
    As always, accurate and timely intelligence is critical. The 
September 11 attacks demonstrated the extraordinary difficulty of this 
task, particularly when faced with a diffuse organization that 
practices excellent operational security. We must be alert to 
signatures of terrorist IND activities. Significant indicators may be 
available but difficult to identify either because they are embedded in 
massive quantities of background information or because it is difficult 
to share analysis results between different user communities. 
Improvements in data mining/extraction techniques will offer important 
advances in the out-years. The utilization of existing national 
laboratory resources could significantly enhance in the near term the 
identification of terrorist intentions. Terrorists formulate their own 
attack plans and strike where and how they choose. However, with 
nuclear weapons and INDs there are limits involving design, materials 
and fabrication that must be met in order to produce a nuclear yield. 
This is the realm of the national design labs and we are able to 
identify some early indications of a terrorist group attempting to go 
nuclear.
    The NNSA's Nuclear Assessment Program provides a national 
capability to expeditiously assess the credibility of nuclear threats. 
Decision makers at the FBI, in concert with their counterparts at the 
NNSA and NRC, use these assessments together with other information to 
determine the appropriate response. Since the program began in 1977, we 
have assessed the credibility of more than 75 nuclear extortion 
threats, 30 nuclear reactor threats, 20 nonnuclear extortion threats, 
and nearly 1000 cases involving the attempted illicit sale of alleged 
nuclear materials. Since September 11 alone, this program has evaluated 
13 nuclear extortion threats, 1 nuclear reactor threat, 24 nuclear 
smuggling cases, and 23 nonthreat incidents.
Search and Interdiction
    We need to be able to detect and intercept INDs and RDDs before 
they reach their target, preferably before they enter the U.S. This 
element alone requires layers within layers. The DOE Second Line of 
Defense (SLD) program is assisting Russia's State Customs Committee in 
detecting and intercepting illicit traffic in nuclear materials, 
equipment, and technology across the 35,000 miles of Russia's borders. 
Information from this and similar efforts should be used to enhance 
existing nuclear smuggling databases, providing linkages among prior 
scams, materials, regions and intermediaries.
    Protection at U.S. borders or ports of entry should be enhanced. 
Maritime shipping is a particular concern, with nearly six million 
cargo containers entering the U.S. each year. Technology can play an 
important role here, with improved detectors at border crossings, and 
``smart'' transportainers with built-in nuclear, chemical, and bioagent 
detectors. The Labs are exploring improvements in port security 
including building a test bed for cargo container technology.
    While the problem of complete protection for large metropolitan 
areas remains difficult, it is possible to install correlated sensor 
networks around key facilities and approach routes. Prototype systems 
have been studied, developed and shown to work. These prototypes will 
help lay the ground-work for development of effective approaches for 
more complex deployment. Multiple organizations are/will be engaged in 
these types of efforts; communication regarding these activities will 
be essential.
Crisis Response
    Should we fail to intercept a terrorist IND or RDD, the next layer 
of defense is crisis response. We must locate the device and render it 
safe. Established U.S. capabilities exist, most notably the Nuclear 
Emergency Search Team or NEST. NEST capabilities include search and 
identification of nuclear materials, diagnostics and assessment of 
suspected nuclear devices, technical operations in support of render-
safe procedures, and packaging for transport to final disposition. NEST 
personnel are drawn from the U.S. nuclear weapons complex, and NEST 
personnel and equipment are ready to deploy worldwide at all times.
    In the current threat environment the NEST program takes on a more 
critical role. Funding for research and development needs to keep pace 
with the changing threat environment. Also, additional personnel will 
need to be recruited and trained.
Consequence Management
    In the event of a domestic nuclear event, consequence management 
assets would be deployed. The NNSA has an established capability for 
predicting the transport and dispersion of materials released into the 
atmosphere, including radionuclides. Most important here is knowledge 
about the probable transport and distribution of prompt effects (blast, 
thermal, radiation) and delayed effects (fallout). The Atmospheric 
Release Advisory Capability (ARAC) is a national emergency response 
service for real-time assessment of incidents involving nuclear, 
chemical, biological, or natural hazardous material. Since it was 
established in 1979, ARAC has responded to more than 70 alerts, 
accidents, and disasters (including Cosmos 954, Three Mile Island, and 
Chernobyl) and supported hundreds of emergency response exercises. 
Emergency managers use ARAC plots to develop the best response strategy 
for minimizing hazards to life or health and property damage in 
affected regions.
    Efficient emergency response will require a capability for promptly 
predicting the dose to the population as a function of location 
relative to ground zero and time after the explosion. Such a capability 
is also essential for rescue teams and others who must enter the 
contaminated area. ARAC's dose-factor database contains dose conversion 
factors for internal and external exposure to all radionuclides. ARAC 
results include plots of material deposited on the ground, 
instantaneous and time-integrated doses, or air concentrations at 
selected levels above the ground. Contours are overlaid on maps with 
features proportional to scale, from buildings to streets to cities to 
countries.
    Decontamination procedures, including a framework for assuring 
public confidence in the adequacy of cleanup, need to be exercised and 
vetted. Incident site monitoring capabilities may require enhancement.
    A mechanism to ensure that decision-makers are familiar with the 
Federal Radiological Emergency Response Plan should be developed and 
implemented; a protection guide for the public needs to be developed 
because written guidance addressing a terrorist event is negligible. 
Plans are needed to prepare for a large-scale incident requiring long-
term deployments of personnel (potentially at multiple locations) and 
significant laboratory analytical capabilities.
Attribution
    The final layer of defense against terrorist use of INDs and RDDs 
against the U.S. is the threat of retaliation. Effective retaliation 
requires accurate attribution of the device--its nuclear materials and 
device design as well as the perpetrators and their suppliers, 
intermediaries, and sponsors. A key technical component is forensic 
analysis of post-detonation debris. The NNSA laboratories, in 
coordination with a DOD sponsor, are working to enhance the timeliness 
of the current attribution capability.
    A related need is the development of a comprehensive forensic-type 
database of nuclear materials worldwide.
                              conclusions
    Terrorist acquisition and use of an IND against the U.S. is a low-
probability, but high-consequence threat. The use of an RDD is a higher 
probability, but lower consequence event. As September 11 so chillingly 
demonstrated, today's terrorists are technically innovative and 
resourceful, financially well supported, actively attempting to acquire 
weapons of mass destruction, and intent on causing mass casualties and 
wide-scale devastation.
    Let me note that important elements of a layered defense against 
the threat of terrorist INDs and RDDs are already in place. 
Coordination among the many agencies involved in Homeland Security is 
improving and continues to be vital. However, with such a complex 
problem, more needs to be done.
    We must protect the key materials for fabricating an IND--full-up 
weapons, weapon pits, plutonium, and enriched uranium--both in the 
U.S., in Russia, and in the rest of the world.
    We must watch for signatures of individuals or groups attempting to 
obtain materials or components of INDs.
    Last, but most important, we must make a sustained investment in 
the science and technology needed to win the war on terrorism. Pulling 
resources from other important programs is ``robbing Peter to pay 
Paul'' and is not a effective long-term strategy. Programs in 
nonproliferation, proliferation detection, counterterrorism, and 
homeland security are closely linked and must not be selected ``either/
or'' or conducted in isolation from each other.
    In closing, let me assure you that we at Lawrence Livermore 
National Laboratory have long been concerned about the terrorist 
nuclear threat. We have built on our historical nuclear weapons mission 
and developed unique expertise, capabilities, and technologies to meet 
these emerging threats. LLNL is already providing critical elements of 
the nation's defense against nuclear, chemical, and biological 
terrorism, many of which were called into action post-September 11. We 
are committed to using our worldclass scientific and technological 
resources--people, equipment, and facilities--to meet the nation's 
national security needs today and in the future.

    The Chairman. Thank you very much, doctor. Let be begin 
with you, and then I want to talk a little more about nuclear 
devices, improvised nuclear devices, and then go back to 
radiological devices and dispersal means.
    As I said yesterday, you showed us a much more detailed 
outline as well as graphic material. And I don't want to 
trespass on anything that is classified, but I think it would 
be useful for the record to know whether or not in your 
counter-terrorism and incident-response efforts over the last 
many years, have you and your colleagues at Livermore--have you 
attempted to go through the process of constructing, doing the 
engineering that would be required for--you obviously know how 
to make nuclear weapons, but, I mean, have you gone through the 
engineering requirements, minimal requirements, that would be 
needed in order to be able to have a reasonable probability 
that if a terrorist had plutonium or enriched uranium, what is 
the most crudest, most workable weapon they could construct? 
I'm not asking you to describe it to me, but have you all 
looked into that to try to figure out what we should be looking 
for?
    Dr. Vantine. Senator, we have looked at that, in a sense. 
We periodically do exercises and drills in the emergency 
response programs. And so for those drills, on occasion, we 
will ask our designers to build what they consider an 
improvised nuclear device. Now, there's a problem, because 
these are often experts in the field, and so they don't think 
like a terrorist.
    The impediment to doing this in a more rigorous way is that 
you don't want to take people who are untrained in the business 
to ask them to do this, because, in some sense, you'd be 
educating them to the problem. So you have to approach it very 
carefully.
    I think it's a good point that you bring up, that, in fact, 
if you want to look for surprises, if you want to look for 
innovative ideas, you probably should, in a systematic way, ask 
people who are not trained in the area to do this.
    The Chairman. And the second point that--you state what has 
been repeated by others, including your former colleague, Dr. 
Agnew, at Los Alamos, that--and I'm paraphrasing him, but 
quoting you--``low probability, high consequence.'' And what I 
was trying to get at this morning, because I think it's 
important that policymakers know and that the American people 
know so we can have a rational debate in allocation of 
resources as to what our priorities are in which we seek to 
deal with first, what threat--the threat assessment is the 
phrase that is used in your business, as well as over at the 
Pentagon--and for us to make some rational judgments on what 
our priorities should be.
    And as I understand it, there are, in terms of an 
improvised nuclear devise, the, hopefully, most difficult part 
of the process is gaining access to the material that goes 
boom, gaining access to the enriched uranium or plutonium or 
fissile material that would cause a chain reaction--a nuclear 
explosion, correct?
    Dr. Vantine. That's certainly true, Senator. If you can't 
get access to the materials, there's no further progress.
    The Chairman. Alright. Now----
    Dr. Vantine. They need that.
    The Chairman [continuing]. The reason I raise this is that 
there has been a good deal of discussion about the existence of 
the safeguard capabilities that exist in the United States 
relative to that kind of material. In my private briefings, in 
classified briefings, and in this open discussion, there is, at 
least in my assessment--I don't suggest I've surveyed every 
person who has any knowledge, but there is a fairly broad 
assessment that is in sync that says that we are pretty darn 
confident about our ability to safeguard our--meaning U.S.--
weapons-grade material. But there is--and I'm not going to ask 
you to comment in any detail--but there is a diminished--in 
some cases, significantly diminished--confidence in the ability 
of other nations that possess weapons-grade material to guard 
that weapons-grade material from access to someone 
unauthorized.
    Now, one of the things that--and I'm trying to make this 
not only--I've been doing this a long time; I think I 
understand it--but I'm trying to recall the dilemma I had in 
understanding the process when I was first exposed--no pun 
intended--first exposed to this subject. And that is the first 
thing I wondered about was how--in what form can this material 
be acquired or stolen? For example, does a terrorist, assuming 
they had access to enriched uranium or plutonium in Russia--
they gained access to a not-sufficiently guarded--now, I want 
to make it clear, I am not suggesting, and no one has suggested 
to me that the Russian Government has anything other than the 
highest interest in making sure no one has access to this 
material, so I'm not implying when I say Russia is the ``candy 
store'' that the Russian Government in any way has been part 
of, is considering, has any desire that anyone have access to 
this material other than the Russian Government and Russian-
Government personnel.
    I know that sounds like stating the obvious, but there's an 
old expression from a friend of mine, ``Assumption is the 
mother of all screw ups.'' I don't want to make any assumptions 
here, because they can be dangerous.
    But having said that, assuming that a person with a mal-
intent--whether an individual or an organization, whether it's 
al-Qaeda or an organization that has yet to be spawned--gained 
access to the--not a constructed weapon, not a weapon, period, 
but to enriched uranium or plutonium. How do they gain access? 
Do they have to have an expertise? It's not like walking in and 
saying--if I'm a terrorist and I'm part of an international 
network and I buy off someone in Russia and they sell me a 
small nuclear device, I can put it in the back of a truck, I 
can put it--depending on how big it is, I can put it in another 
container, I can transport it, and I can do it without any 
danger other than I may get shot transporting it, but it won't 
be because, by my touching it, by my putting it in the truck, I 
am going to be contaminated.
    What about the actual raw material--and it's not raw, 
because it's been--it's acted upon. But what about plutonium? 
How does that occur? Is that a difficult thing, even if you 
have access, to take it from its source and transport it to 
whatever destination you desire for purpose of making an 
improvised nuclear device?
    Dr. Vantine. Senator, let me answer that by way of relating 
some of the findings of the DOE's Nuclear Smuggling Program. 
The Department has a program to look at smuggled sources, if 
you will, smuggling. And what they find is that there are a 
significant number of what I'll call ``scams'' on the market. 
So there's a lot of misinformation out there. There's a lot of 
uncertainty about, ``Whether this is nuclear material,'' by 
people who really aren't educated as to what they have or what 
they think they have or are trying to make a fast buck for 
something they don't have. So there's a lot of misinformation 
out there.
    The Chairman. Well, that's good.
    Dr. Vantine. That is good. But I'm not sure that addresses 
your question, but it shows that, indeed, there is some 
difficulty on people's part understanding what they have and 
how important it is, how vital the material they have might be.
    The Chairman. I guess what I'm trying to get at is this. If 
someone were to steal, purchase, acquire radiological 
substance. That is, what you showed Dr. Koonin, that--I forget 
how many pounds it was----
    Dr. Koonin. Fifty pounds.
    The Chairman [continuing]. A 50-pound device used for a 
legitimate commercial purpose--were it not shielded, it may 
admit, depending on what you are acquiring, a lethal dose of 
radiation, rendering you too ill, and eventually die, to be 
able to fulfill your mission if you had to do an engineering 
feat to construct something to put it in to make it do 
something that would be dangerous to society. Is the transport 
of plutonium as difficult if you are in contact with it? Need 
it be shielded?
    Dr. Vantine. I don't want to go too far with this, Senator, 
but----
    The Chairman. OK.
    Dr. Vantine [continuing]. But let me say that with proper 
precautions, shielding and distance from the source, these 
materials can be handled. How easy or hard it is, I'd rather 
not get into that.
    The Chairman. And the reason I ask is, it seems to me--and 
one of the things we, in the closed session, I'm going to ask 
my colleagues to listen to you at another time--I mean all 99 
of my colleagues at some forum or another--is to try to get a 
sense of whether or not the low probability is a low 
probability throughout the process. It's a low probability 
you're going to get to the point where someone is going to make 
available to you this material, even in the former Soviet 
Union, hopefully. Second----
    Today's my day for Presidents. Excuse me. It's the 
President of another country. I apologize. I lost my train of 
thought.
    There is the process of acquiring the material. There is 
the process of transporting the material. And then is there a 
requirement that the material would have to be put in a 
different form than acquired in order to make it applicable or 
be able to be used in a device that would be designed, 
engineered to make it explode, to cause a nuclear chain 
reaction?
    Dr. Vantine. Mr. Chairman, I understand the question, and 
I'd be glad to respond to that in a closed session.
    The Chairman. OK. Now, I think I'm right at the end of my 
string of what we can talk about in an open session. I recall 
what the other thing I wanted to ask you is.
    Are you able to discuss this at all in an open session? 
What are the signatures and indicators of the presence of or 
the attempt or the circumstances that makes the lights go on 
that would make government officials say, ``This group, based 
on this signature, based on''--as I understand what you mean by 
signature and indicators--``is a group that appears to be 
pursuing an effort to build, acquire, and/or construct an 
improvised nuclear weapon?''
    If I can make an analogy, I have some considerable 
experience in the drug field for doing this for so many years. 
There are certain precursor chemicals that are obvious if 
they're present what the individuals involved in the drug 
business are about. And it relates to whether or not they're 
making methamphetamine or cocaine or heroine. Is that what you 
mean by signature? What do you mean by ``signature'' and 
``indicators''?
    Dr. Vantine. Normally when I talk about signatures, I mean 
precisely what you just mentioned, Senator. When somebody is 
trying to produce biological or chemical weapons in particular, 
there will be chemicals given off in the production process 
that perhaps we can look for.
    In the nuclear business, there is some of that to some 
degree, so that when somebody is trying to work with materials 
that might go into a warhead, they might have to deal with 
certain materials, and we can look for indicators that they are 
working with those materials.
    In a general sense, let me say that, in working with 
nuclear--trying to develop either a radiological or a nuclear 
warhead, you look for people, you look for information, and you 
look for equipment. So you can look for the kind of people that 
maybe are working on this. You can look at people with various 
degrees--in the case of nuclear, nuclear engineering--look for 
the kind of sources they might use, look at resources from the 
Internet, resources from the library that they might collect. 
So you look for the people. You look for the knowledge. I 
touched on that. People who are interested in--you know, in the 
case of the World Trade Center, flying airplanes, but not know 
how to land them. So you look for pieces of intelligence that 
tells you somebody's out there looking--seeking information 
about how to build something.
    And then you look for the technologies, if somebody is 
buying equipment that could be used in the construction of 
nuclear devices. This morning we talked a little bit about 
radiation detectors. If people are buying who don't seem to 
have a reason--a normal reason to buy that--so you can put all 
this together. I think these are all signatures, in a broad 
sense.
    The Chairman. Without naming them, are there certain 
metals--if you were aware that I was purchasing certain metals 
or certain devices that would be categorized as elements of my 
engineering process to construct a device, not the material, 
are there certain obvious telltale signs that would raise a red 
flag if you knew that so and so went to such and such a 
supplier and purchase x amount of a particular metal or a 
particular anything else, are there those kinds of things that 
are--are there basic elements that are required to construct a 
device that are essential?
    Dr. Vantine. There's no one path here. There's no one 
solution that we look at. There are multiple paths forward. So 
there's not just one indicator, for instance.
    Coming at it from the other direction, a lot of materials 
are what I'll call ``dual use,'' so they have a legitimate use 
besides the use of trying to make INDs. So there's no smoking 
gun in that sense. But I think it's the preponderance of 
evidence, it's collecting a number of indicators, trying to put 
the--make composite case out of this and then understanding 
what somebody is trying to do. That's how we----
    The Chairman. I guess what I'm trying to say is----
    Dr. Vantine. It's a difficult problem.
    The Chairman [continuing]. If you knew that the XYZ Club to 
Promote Peace and Humanity was buying dual-use items without 
any reason to believe that they would have a legitimate use for 
them, that would be--that's an indicator, I assume.
    Dr. Koonin. One dual-use, maybe. Two dual-use items, you 
get very worried. Three dual-use items, you're very worried.
    The Chairman. Now, what can we do, the U.S. Government, to 
raise the barriers or raise the stakes that make it more 
difficult for terrorists to obtain these improvised nuclear 
devices or basement nukes or whatever the phrase you hear 
bouncing around. The term of art you all use is ``improvised 
nuclear device.'' But what are some of the things that we can 
do? If we first prevent them from acquiring plutonium-enriched 
uranium, is the game over?
    Dr. Vantine. Let me just second the first point you made. I 
think the United States has the most serious program to protect 
strategic nuclear materials, and I think it's in our interest 
to encourage the rest of the world to have the same standards 
that we have.
    I think once they get--if somebody is known to have 
materials, I think we ought to try to recover those materials. 
The game is certainly not over at that point. I think there's a 
long, rocky road ahead. But at that point, it becomes much more 
speculation as to where they'll go, and you'll find many strong 
opinions. There are many detours you can take along the way. 
There are many wrong turns you can make. There is no guarantee 
of success at that point. But there is a very heightened state 
of concern at that point, when somebody has the materials.
    The Chairman. If they have the material. Because as I 
said--I quoted Agnew this morning, and I'll quote him again, 
``For those who say building a nuclear weapon is easy, they are 
very wrong, but those who say building a crude device is very 
difficult, they are more wrong.'' Would you agree with that 
statement?
    Dr. Vantine. I won't comment on that statement, sir.
    The Chairman. Alright, OK. I think you're really with the 
CIA. I don't think--or, if not, maybe you're with the 
Department of Information at the State Department. I'm not sure 
which, but one thing I do know is you're a first-rate 
scientist, and I told you I would abide by your concerns of 
what you stated in open session, and I will.
    But in terms of priorities, though, is there agreement 
that, in a sense, first things first, the single most 
significant thing we could do to even make the probability of a 
device being able to be purchased lower than it is at this 
moment is increase the safeguards surrounding the actual--that 
weapons-grade material that is in existence.
    Dr. Vantine. Absolutely correct, Senator.
    The Chairman. Good. Well, and have you had a chance, 
doctor--are you familiar with the Baker-Cutler report?
    Dr. Vantine. Unfortunately, I'm not familiar with that 
report, no.
    The Chairman. Alright. Well, I'm going to--because I know 
you have really very little else to do, you're not a busy man--
I'm going to send you a copy of the report. And maybe over the 
next month or so, if I ask you for your response, in open or 
closed session, as to some of its recommendations, because 
neither Mr. Baker--Senator Baker--Mr. Ambassador, now, Baker or 
Mr. Cutler, who are very schooled and aware of matters relating 
to what used to be called ``strategic doctrine,'' and now we're 
talking about its--the application of very cruder versions of 
weaponry in the hands of individuals and not nation states, but 
they don't have your background on the science side of it, so 
I'd be interested to see what you thought.
    But the safeguarding of the world's fissile material is not 
the only defense, but it seems to me, from what I've heard 
today, it may be the best defense. We get the--no pun 
intended--the biggest bang for the buck if we were able to make 
it even more difficult. The degree to which we raise that bar, 
in terms of accessing that material, the degree to which, it 
seems, increase the lower, even than it is now, the probability 
of such a weapon being able to be constructed.
    Let me move, if I may--my one other question is--
apparently--and I don't remember this, but I'm told that Dr. 
Oppenheimer was asked what resources would be needed to 
intercept a smuggled atomic bomb. And at the dawn of the 
nuclear age, he told the Congress the best tool for finding a 
smuggled atomic bomb was a screwdriver--and that was to open 
every crate and open every package.
    Which leads me to, really, my next--not line, but my next 
area of questioning, and that is that--and we just touched on 
it briefly, and I'd appreciate the three of you giving me your 
best judgment. You indicated, Dr. Vantine, that in order to 
deal with this, you look at the source, the signature, 
detection, mitigation, management, and attribution. And not 
probably in that order. With regard to detection, there has 
been discussion this morning, and there will be more discussion 
about the detection capability presently exists commercially, 
detection capability that exists, at least in the literature, 
and detection capability that is on the horizon. And everyone 
has said we should spend more time and energy and resources in 
attempting to better that capability.
    Now, can you--any of you or all of you--explain, in 
layman's terms for me--the difference in the degree of 
difficulty, if there is any, in detecting a radiological weapon 
and detecting a nuclear weapon, even though it is an improvised 
nuclear weapon or device. Could you talk to me about that?
    Dr. Vantine. Yes, let me begin with that, maybe. Let's talk 
about radiological weapons first. By their nature, these 
radiological weapons are meant to scare people by emitting 
radiation. So they're fairly ``hot'' in that sense. In a 
radiation sense, they're very hot. And particularly before 
they're dispersed, if there's an explosive or something, they 
can be extremely hot. And in that sense, they can be detected.
    Someone walking down a street--that's one peg point, if you 
will. People with radiation treatment for medical--people who 
have medical isotope treatments, generally they can be seen 
very easily by these detectors. Those sources are very strong 
in the sense of the kind of detectors that we have. So we can 
see those.
    We do have sensors for looking for nuclear weapons. And, 
yes, we can see those. They're somewhat harder to see than the 
radiological weapons.
    So there is real potential here to be able to detect these 
weapons. And we do have prototype detectors that are even 
better. We have prototype detectors that are very effective at 
removing background radiation. There's background radiation all 
around us, but if you can knock down some of that, you can see 
things much more clearly. So that's a path forward that I think 
we're almost ready to take. We're almost ready to bring it out 
of the box.
    The other big advantage here, particularly for low-cost 
detectors, is trying to put some computer software on and 
trying to include some interpretive software so that when they 
take their signals, on the spot, they can look and compare what 
they're seeing to known data bases and relay the message back 
to someone that--some control point that, ``This is what I'm 
seeing.'' So those things have real promise in the future.
    So I think we're sitting at the dawn, maybe, of a new era. 
Maybe that's too strong a word, but I think we're sitting at 
the breakout of new detector technology. So I think it's pretty 
exciting. We have lots of people working that at the, I'll 
call, development level--R&D level.
    The Chairman. Thank you. Dr. Koonin.
    Dr. Koonin. Mr. Chairman, I'm not quite as confident as Dr. 
Vantine is about the detectability of radiological sources. I 
won't go into the details of steps one might take to minimize 
their detectability, but I would note that we routinely ship 
radiological sources through ordinary public transportation 
channels without setting off detectors.
    The Chairman. Dr. Kelly.
    Dr. Kelly. Well, I must say the one thing I think we all 
agree on is the fact that our detection systems are good, but 
they could be a lot better, and that there are many 
technologies out there that could be tuned to the variety of 
different materials that will be moving through the economy. 
And a lot of these materials we're talking about for potential 
radiological weapons have fairly unique signatures. I think we 
need to work on that.
    Plainly, the highest priority is finding smart systems that 
are able to bring lots of different sources together. But the 
more information you've got, the more your computer system can 
filter out spurious signals from real ones. And I'm sure we all 
would say that this needs to be a very high-priority research 
project in the laboratories and elsewhere.
    Dr. Koonin. One last point. As we put surveillance systems 
of all sorts, and we've seen this with the airport security 
systems, it's very important that they be constantly tested and 
``red-teamed'' to be effective. Someone must probe the system 
and someone must be actively trying to defeat the system to 
make sure we understand its capabilities and limitations.
    The Chairman. We have, as a Nation, supported IAEA programs 
to provide confidential technical advice to countries that may 
have nuclear security problems. The IAEA also helps bring 
radioactive sources under control, as it did in two very 
dangerous sources in the former Soviet Republic of Georgia 
earlier this year. How useful are the IAEA programs to help 
countries improve their nuclear materials security?
    Dr. Koonin. I think they're an excellent place to start. 
But again, as we've been talking, in this country the change in 
atmosphere and context of the control of sources shifting from 
safe-use to perhaps tighter security is something that the IAEA 
may also want to consider changing its posture on. But it's a 
very good start.
    The Chairman. Anyone else? Should we support efforts to 
expand those programs so that we can better address security of 
radioactive sources? I mean, is that something any of you have 
any background or expertise in?
    I mean, a lot of these things are complicated. As we expand 
methods to deal with this, we end up with more intrusive 
practices, and sometimes they are counterproductive, arguably. 
But is there any instinct you all have about how to proceed, 
whether we should be looking at that? Or should we be going to 
a--no pun intended--a different source to get that advice or 
information?
    Dr. Koonin. There's one international aspect that strikes 
me here as perhaps worth bringing out. Because of our concerns 
about security and our economic capacity to do so, we might 
encourage the shift away from sources to accelerators or 
neutron generators, and that would be our judgment of the 
economic tradeoff, versus security. Other countries which might 
not have as robust an economic situation or might not have the 
same security situations, might see the balance in a different 
way. And so it may be very difficult to impose uniform 
standards of control across all countries.
    Dr. Vantine. I might comment, Senator, that one of the 
things that I recommended was that in certain areas of our 
infrastructure we do risk assessments. And I think this issue 
of shipping practices internationally is an area that we might 
want to do a risk assessment, to look at the problem, find out 
if there are particular vulnerabilities, and, once having 
identified those vulnerabilities, trying to close them. I think 
those type of systems studies, in the context of the current 
threat, need to be done and they should be high priority.
    The Chairman. I couldn't agree with you more, and what I'm 
about to say, I want the record to show, is not a criticism of 
the new Homeland Defense Office, nor is it a criticism of 
Governor Ridge. I think he has an incredible job to undertake, 
and he is going to find so many bureaucratic roadblocks in his 
way that it's going to be awhile to sort this out, but it's a 
good place to start. I am--and I'm not asking for a comment--I 
am operating under the assumption, because I do not know at 
this point--I'm operating under the assumption that that very 
approach is being considered and organized and plotted by this 
new agency of the government, because it goes back to my 
central point and, quite frankly, my primary reason for 
engaging you gentlemen in the first place, and that was that--
is that I am--again, as a bit player in the policy process 
here, I am incredibly--for me, the place that I start and 
drives my professional staff crazy, is I want that risk 
assessment. I want that analysis, because I'm being asked to--
and occasionally proposing--to spend the taxpayer dollars for 
purposes protecting them.
    And the one great thing about this job--and taking a quote 
out of context from former Judge Bork is, ``This is an 
intellectual feast.'' This is the most wonderful job in the 
world to have if you have intellectual curiosity. You can have 
at your disposal the best minds in the world. Three of them are 
sitting at this table, and I get to ask them anything I want to 
ask them, and I get to hopefully learn something.
    But I think there's been precious too little--in this 
administration, the last administration--precious too little 
emphasis on risk assessment, risk analysis, and comparative 
analysis of the priority that should attract our attention 
relative to the threat and the risk. And that's one of the 
reasons for this hearing. And there will be more.
    Let me ask you, one of the things that you all have spoken 
about as it relates to all of the questions that have been 
raised is this notion of mitigation. Once an episode, an event, 
has occurred, whether it be an improvised nuclear device or a 
radiological disbursal device--and you've pointed out that 
we're talking about a standard that exists now, which I believe 
is one in ten thousand. Is that right? The EPA?
    Dr. Kelly. Yes.
    The Chairman. And how, in God's name, do you decontaminate 
the exterior, let alone the interior, of a building that is--as 
you pointed out, doctor, the cesium attaches to asphalt, 
attaches to granite, concrete, I assume glass--maybe not, I 
don't know--to just anything, any substance. How would--how is 
that done? And don't say ``with great difficulty.'' Please.
    Dr. Kelly. Well, I guess in some of the--there has been 
considerable experience, of course, after Chernobyl, and 
particularly the Scandinavian countries that have been downwind 
have invested very heavily in trying to find ways to mitigate. 
And it is really, unfortunately, a largely unsolved problem. 
You can make the matter--one thing they did discover is you can 
make things worse if you don't do it right. You can trade a lot 
of contaminated water that can go under the ground, not 
something you want to do.
    I think that there's a--this is a place which I think--
well, you say ``with great difficulty''--unfortunately, the 
way, often, these sites often are decontaminated is by scooping 
up the dirt and ripping down the buildings. And one would hope 
that there's a better way. And it strikes me that this is an 
area where, again, we need to do some fairly careful thinking 
about what the alternatives are to us.
    Of course, there are also procedural things we need to do 
to figure out how we can make sure we get people out of these 
places in an efficient way. But, plainly, our highest priority 
is to----
    The Chairman. Well, if I can--again, I'm just trying to get 
my arms around this so it's understandable. Assume, for the 
moment, that we could roll the tape back to September 10, not 
September 11, and the terrorists set off a 1,000-curie 
radiation device in lower Manhattan. How would you compare the 
number of buildings that we'd have to raise compared to what 
happened, if that's a fair--it may not be a fair question, and 
there may not be a precise answer. But we'd be taking down a 
heck of a lot more than the World Trade Towers, wouldn't we, or 
would we?
    Dr. Kelly. Yes, we're talking----
    Dr. Vantine. Oh, yes.
    Dr. Koonin. A thousand curies, we'd be looking at--30 
square miles is probably a good fraction in Manhattan if it 
were disbursed efficiently.
    Dr. Kelly. And Manhattan has roughly $2 trillion worth of 
real estate.
    The Chairman. Say again?
    Dr. Kelly. There's roughly $2 trillion worth of real 
estate----
    The Chairman. Two trillion dollars worth of real estate. 
Well, I suspect that's the first time we would visit seriously 
of whether or not the standard----
    Dr. Kelly. Indeed, we----
    The Chairman. No, I'm not being facetious. Obviously one in 
ten thousand is something that is the standard that we would 
be----
    Dr. Koonin. Mr. Chairman, I wonder, as we think about 
preparations for this sort of thing, what we can do in advance, 
I wonder whether some amount of education of the public about 
the different standards, how they are set, the differences 
between recommended dose, legally allowed dose, seriously--
health hazards associated with doses--might be something that 
would be worth talking about in public forums more----
    The Chairman. Well, quite frankly, that's the very reason--
one of the reasons I wanted to have this hearing, because, as I 
said earlier this morning, obviously anthrax is a dangerous 
substance, but before our most recent and, God willing, our 
only, but not likely, experience with anthrax disbursal, there 
was a sense that it may have a lethality far beyond what it 
did. And there was a significant period, and still a question 
now, of whether or not the lethality of what was released in 
the envelope that was released in the building adjacent to 
here, actually connected to this building, was even more 
dangerous than it was--than had occurred, but because of 
mitigation at the time, it didn't do as much damage.
    But, having said that, I don't think there is the same 
response out there now. I went home immediately after the first 
anthrax event, and literally I found reasonable people, 
understandably in my constituency, close to panic about what 
was underway. We had great discussions about the issue of the 
disbursal anthrax through crop-dusting aircraft and the ability 
to wipe out whole cities and so on. And then we got to the 
issue of--which I would argue is a little more analogous 
because of difficulty of acquiring--to smallpox virus and its 
disbursal and means of disbursal through a self-infected human 
being, et cetera.
    But we began to gather some sense of proportion here. And 
when you had a case of the bubonic plague in India--in two 
different cities in India about--I think it was about 10 years 
ago--there was, in one area--in one of the cities where the 
political--meaning the governmental apparatus--had sufficient 
information. They greatly diminished the panic, greatly 
diminished the damage done, greatly diminished the 
consequences, compared to the city where there was little 
information made available to the public.
    And so I operate on the premise here that your suggestion--
or your question should be turned into a suggestion, that I 
think we should be doing that. And I would ask, not for you 
necessarily to respond now, whether any of you or all of you 
would be willing to submit for the record how one would best 
approach doing that, from a public policy position, from the 
position of sitting behind this bench. What should we be doing? 
Because I think that it is the--I mean, the greatest tool 
terrorists have is terror. It is inflicting this sense of 
helplessness upon a society and in many cases designed and if 
not handled, literally being able to break governmental 
entities and breed chaos.
    So I would very much be interested, doctor, in any 
suggestions you have, because I think the discussions should be 
undertaken in light of the fact that it is a--it is, in a 
sense, the opposite geometry of--political geometry of a 
nuclear device, which is a low probability and high damage. 
This is a higher probability and lower-end life-threatening 
damage that can occur. And to the extent that we educate 
people, I think we will be doing the country a service.
    Rather than keep you all beyond what I have, beyond 
trespassing on your time, as I've done so far today, is there 
any comment any of you would like to make in closing here or 
any suggestions you would have for me or the Congress in how we 
should think about proceeding as we explore what is obviously a 
problem, obviously a concern?
    Dr. Vantine. Senator, let me just wind up things by 
reiterating something I started with, and that is that I think 
as we look at weapons of mass destruction--nuclear, chemical, 
biological, the whole panoply of weapons of mass destruction--
we always have to come back to--the worse scenario is loss of 
life. And I think that needs to be put at the top of the list. 
We need to be concerned with those scenarios where people lose 
their life.
    And I would just close by reminding people that in the 
Chernobyl incident, which is about the worst radiological 
release I can think of--maybe there are worse ones, but it's 
pretty bad--5 percent of the core up in the air, carbon core 
reactor burning for several days dispersing materials--you look 
at that accident--30 people died--they were all radiation 
workers--as a result of that accident. A hundred and forty 
people had radiation sickness--again, all radiation workers.
    That kind of an event, in terms of loss of life, pales 
compared to World Trade Center, Oklahoma City, Khobar Towers, 
Embassy bombings. So I think we need to keep our eye on all of 
this, but the thing I'm most concerned about is those incidents 
that cause loss of life.
    The Chairman. Gentlemen?
    Dr. Koonin. I would think, after what we have heard today 
and in our discussions in the closed session yesterday, you or 
your colleagues might want to take a hard look at the 
improvements in safety and security of radioactive sources that 
might be made in this country.
    Dr. Kelly. I would say that the theme that you outlined, 
which is to try to understand what the risks are facing the 
country and what the probabilities are and what the 
consequences are, is something that is seriously needed. And I 
think what we've done here is to implicitly rank some of these 
threats.
    At the end of the day, radiological weapons are far from 
the most serious kind of attack that we could have, but it's a 
very plausible threat, and it's a place where a reasonable 
investment and a good plan could accomplish a lot.
    The Chairman. The reason why I think people are looking at 
the--some of us are focusing on the radiological attack. And, 
Dr. Vantine, I have had a preoccupation with your major concern 
that absolutely has bored the living hell out of my colleagues 
for the last 6 years. And I began to wonder--the reason I was 
so impressed with your testimony is I said, ``My God, there's 
someone else thinking about this,'' because I've gotten nowhere 
in trying to raise the consciousness of the prospect, even the 
raw prospect, of an improvised nuclear device, notwithstanding 
its great degree of difficulty. And so I understand, and I 
agree with your, sort of, calibration of the damage and the 
risk and what we should look at first.
    But just as we are looking at cyber-terrorism, we're 
looking at it for--the two things terrorists seem to be 
interested in in this country are disrupting our financial and 
economic systems and, on the other hand, inflicting a 
significant loss of life as a consequence of terrorist 
activities. They seem to--there's some evidence to think that 
those who think about doing us harm are no longer 
unidimensional, are no longer looking just for, you know, the 
big bang, although that is the thing that gives them the 
greatest joy and seems to be the thing they are pursuing with 
the greatest earnestness.
    But the economic impact of a radiological weapon, 
particularly in the absence of considerable more public 
education, is one that can have catastrophic consequences for 
us not resulting in a loss of life directly, but--and I'm not 
comparing the two in terms of their consequence except to say 
that the second-tier concern is nonetheless a monumental 
concern.
    But I look forward, if you're willing to doing two things, 
making your individual and collective knowledge available to my 
colleagues, as a whole, and, second, to--asking for your 
willingness to continue to give us advice, in closed session as 
well as open session, on how we should proceed, because this is 
one area that is, in a sense--should be above my pay grade, 
but, unfortunately, it's not. It should be above the 
President's pay grade, but it's not. We have to rely on, and we 
should rely on, the acumen that you all possess in order to 
tell us, guide us, in how to proceed.
    So again, I thank you very much. I apologize for the 
confusion of the day and appreciate your forbearance. And with 
that, the hearing is adjourned.
    [Whereupon, at 4:35 p.m., the hearing was adjourned.]

                                   - 

</pre></body></html>
